<html>
<title> - MANAGEMENT OF THE NATIONAL PARKS AND THE PARKS OF THE SOUTHWEST</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
    MANAGEMENT OF THE NATIONAL PARKS AND THE PARKS OF THE SOUTHWEST

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 13, 2005

                               __________

                           Serial No. 109-138

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-379                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                       Marc Wheat, Staff Director
                         Nick Coleman, Counsel
                          Jim Kaiser, Counsel
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 13, 2005.................................     1
Statement of:
    Frost, Richard M., associate regional director, 
      communications and external relations, Intermountain Region 
      of the National Park Service...............................     8
    Haughey, Joe, a city of Flagstaff council member.............     1
    Keiter, Bob, board member, National Parks Conservation 
      Association, NPCA; Deborah Tuck, president, Grand Canyon 
      National Park Foundation; Kimberly Spurr, board member, 
      Arizona Archaeological Council; and Rick Smith, former 
      associate regional director, Natural and Cultural Resources    33
        Keiter, Bob..............................................    33
        Smith, Rick..............................................    82
        Spurr, Kimberly..........................................    72
        Tuck, Deborah............................................    61
Letters, statements, etc., submitted for the record by:
    Frost, Richard M., associate regional director, 
      communications and external relations, Intermountain Region 
      of the National Park Service, prepared statement of........    11
    Keiter, Bob, board member, National Parks Conservation 
      Association, NPCA, prepared statement of...................    36
    Smith, Rick, former associate regional director, Natural and 
      Cultural Resources, prepared statement of..................    84
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Spurr, Kimberly, board member, Arizona Archaeological 
      Council, prepared statement of.............................    74
    Tuck, Deborah, president, Grand Canyon National Park 
      Foundation, prepared statement of..........................    65


    MANAGEMENT OF THE NATIONAL PARKS AND THE PARKS OF THE SOUTHWEST

                              ----------                              


                       THURSDAY, OCTOBER 13, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                     Flagstaff, AZ.
    This subcommittee met, pursuant to notice, at 10 a.m., at 
Flagstaff City Hall, 211 West Aspen Avenue, Flagstaff, AZ, Hon. 
Mark E. Souder (chairman of the subcommittee) presiding.
    Present: Representatives Souder, and Turner.
    Also present: Representative Renzi.
    Staff present: Nick Coleman and Jim Kaiser, counsels; and 
Malia Holst, clerk.

  STATEMENT OF JOE HAUGHEY, A CITY OF FLAGSTAFF COUNCIL MEMBER

    Mr. Haughey. Thank you, Chairman Souder and members of the 
committee. I'm Joe Haughey, a city of Flagstaff council member. 
On behalf of the City Council and the community, I welcome you 
to Flagstaff and thank you for your attention to the needs of 
the National Park Service in the Northern Arizona Region. Mayor 
Donaldson asks that you accept his regrets in not being able to 
attend this important hearing.
    The local National Parks and Monuments, Walnut Canyon, 
Wupatki, Sunset Crater and the Grand Canyon, are vital to 
Flagstaff's quality of life, our economy, and the forest health 
and sustainability. These parks offer cultural and natural 
resource attractions integral to the quality experiences of our 
residents and guests alike.
    Lack of adequate funding for capital improvements in 
routine operations may limit these experiences. The Park 
Service also has a significant role in the health and 
sustainability of our forests. In this region, local, State and 
Federal agencies collaborate on forest health issues and 
respond to wild fires together. Wildland fire protection is 
fundamental to the vitality of the sustainability of Flagstaff 
and northern Arizona.
    The participation of National Park Service is integral to 
the fire protection program in the Flagstaff area, as wild fire 
knows no boundaries. I urge your attention to maintaining 
adequate staffing and capital investment to both mitigate 
catastrophic wild fire and to respond when it occurs.
    I recognize these are difficult times and the funding needs 
are great. As you consider these many needs, I urge you to 
consider the importance of continued maintenance of investment 
in the Park Service and the long-term benefits of this 
investment.
    Thank you for your consideration, and welcome to Flagstaff.
    Mr. Souder. Thank you very much. Thank you for letting us 
use the city building today. I appreciate it very much. The 
subcommittee will now come to order.
    Good morning and thank you for joining us today. This is 
the fifth in a series of hearings focused on critical issues 
facing the National Park Service. We have had hearings in 
Gettysburg, Washington, DC, Boston, Seattle, Washington, and 
this is our fifth one. I would like to welcome all of the 
Members of Congress who have joined us in this hearing and who 
care deeply about our National Parks.
    Given the great diversity of national parks in the United 
States, managing these sites is a daunting task, indeed. Each 
park unit has unique demands that require a close examination 
of each unit's mission, strengths, and weaknesses. It is 
imperative that the National Park Service carefully examine 
each park to determine the best possible way to manage any 
given unit.
    Over the past few years, the National Park Service has 
worked on a comprehensive catalog of park units, backlogged 
projects, and asset inventory. These analyses are important if 
the parks are to be managed appropriately and efficiently. Any 
examination of a park's mission, management, and functions 
cannot be without controversy. As we have seen, recent 
proposals have met with vigorous opposition, and have sparked 
equally vigorous debate, and rightly so.
    My hearings and their resulting report aim to examine the 
National Park Service and ultimately make proposals and 
recommendations. I am sure that it too will not be without 
controversy, but if the national parks are to survive and be a 
source of recreation and inspiration to future generations of 
Americans, then we must do all that we can to maintain them and 
make them better.
    In addition to management of the national parks, this 
hearing will examine the parks of the Southwest. Most notable 
among the parks of this region is Grand Canyon National Park. 
Among the most popular and recognizable of all the national 
parks, it is natural that we should hold one of our hearings 
here.
    As fitting as it is for us to have a hearing here, it is 
just as fitting that we are joined by one of the Grand Canyon's 
Congressmen, Rick Renzi. Also, I would like to welcome 
Congressman Mike Turner of Ohio, who is a member of the 
committee. Both of these gentlemen appreciate the parks and are 
working to ensure they survive and thrive for many, many years 
to come.
    I would like to also welcome our witnesses. Our first panel 
consists of Richard Ms. Frost, the Associate Regional Director 
of Communications and External Relations for the Intermountain 
Region of the National Park Service. Mr. Frost will be 
testifying on behalf of the Park Service. He will be joined 
during the question period by Joe Alston, the superintendent of 
Grand Canyon National Park; and Palma Wilson, the 
superintendent of the Flagstaff Area Monuments.
    On the second panel, we have Deborah Tuck from the Grand 
Canyon National Park Foundation; Bob Keiter, representing the 
National Parks Conservation Association; Kimberly Spurr of the 
Arizona Archaeological Council; and Rick Smith, formerly with 
the National Park Service. Welcome to you all.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] T7379.001
    
    Mr. Souder. I would now like to recognize Congressman 
Turner for an opening statement.
    Mr. Turner. Thank you, Mr. Chairman. I appreciate your 
leadership and your interest in preserving our national parks, 
Mr. Renzi, my fellow classmate, for hosting us today, and also 
to thank you for your commitment to our national parks. As you 
and I discussed, it is a great treasure for our country and it 
is important to our families, and your efforts to preserve and 
enhance this experience and preservation for our country serves 
everyone, and I appreciate that.
    Like the others, my appreciation and fondness of our 
national parks began when I was young as part of the great 
American vacation. My parents took my sister and me on a long 
adventure out west to see many of the breath-taking national 
parks and monuments. It instilled in us pride in our country 
and awe in God's creation.
    As recent as this August, my wife and I had the great 
pleasure of recreating that vacation as an adventure for our 
very young children, traveling 5,890 miles in a great circle 
beginning from Ohio. In our journey through these national 
parks such as Grand Canyon, Yellowstone, Mesa Verde, Canyon de 
Chelly, Bryce, Zion, and others, we had the opportunity to meet 
outstanding park staff, some of which I see here today in this 
important hearing.
    This tour, combined with the existence of the Dayton 
Aviation Heritage National Park in my district in Ohio, has 
added to my understanding of the National Park Service. The 
purpose of the National Park Service is to educate the public 
about the history, environment, and culture of our great 
country, and to preserve this heritage for future generations.
    For an example of why the National Park Service is 
necessary for heritage preservation, one only needs to look 
toward the sky. Many people think mistakenly that Kitty Hawk 
was the birthplace of aviation, as demonstrated by North 
Carolina's license plate, ``First in Flight.'' The Dayton 
Aviation Heritage National Park works to build a proper 
understanding of aviation history, and encompasses several 
sites in Dayton, OH, to include the home of the Wright 
brothers, the Wright brothers cycle shop, the Huffman Prairie, 
the field where the Wright brothers perfected flight, which is 
now the home of Wright-Patterson Air Force Base.
    The Carillon Historical Park claimed the right to Flyer 
III, which was the world's first practical airplane that was 
able to sustain flight. Together these sites tell the story of 
Orville and Wilbur Wright, their work in Dayton, OH, in 
researching, engineering and building the world's first 
airplanes.
    I look forward to hearing the testimony today from our 
panelists and learning their ideas to provide solutions to the 
operation and management needs of the national parks, 
especially with regard to the parks of the Southwest.
    I want to thank you again everyone from the National Park 
Service and what you do to make our families from really 
throughout the world welcome in our national treasures, and 
what is a national treasure as a Park System.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you, and thank you also for your 
leadership in the National Audubon Historic Preservation 
Caucus.
    I would now like to yield to Congressman Renzi, an active 
member of the Resources Committee, and a leader on these 
issues, and thank you for hosting us.
    Mr. Renzi. Thank you, Mr. Chairman. I appreciate being 
here, too, and Congressman Turner, it is great to see you. I do 
thank you for your friendship and your advocacy. We are 
classmates. Thank you for coming all the way out this summer, 
and coming back out to be a part of this today.
    Both of you all have taken a critical issue at a very 
timely moment and pushed it to the forefront, and you've done 
so even at times without the consensus of the whole party, and 
I want to, first of all, recognize your leadership and your 
courage in doing that, and it's critical with all of the 
different expenses that we're seeing around the country, that 
we lift and bring to the forefront the treasure of the national 
parks.
    So this hearing today in Flagstaff is timely, it's 
important, and it's also courageous with the leadership. I love 
northern Arizona, and a lot of us live here because of the 
breathtaking landscapes. We've got national monuments, 
designated areas, Sunset Crater, Wupatki Pueblo, and we have 
the jewel of all of the parks, in my opinion, the Grand Canyon, 
as well as the Petrified Forest which we're working hard to try 
and protect.
    The Nation and our children learn about our history. They 
learn about our past, and they learn about our Nation and our 
country at these different sites and these different locations, 
much like the educational tour you took with your family, and 
so I'm very fortunate this morning to be with you to help drill 
into these issues, and to find out where it is that we're 
vulnerable, to understand the Achilles's heel in the funding 
mechanism and why it is that we're not seeing the emphasis in 
some areas pushed, and in particular to preservation and to 
operation and maintenance costs, and to expansion of some of 
the infrastructure needs, the capital improvements that is so 
critically and so far behind.
    Again, thank you for your courage in taking the time to 
come all the way out here and taking you away from your 
families.
    Mr. Souder. Thank you very much, and before we do proceed, 
two procedural matters. I ask for unanimous consent that all 
Members have 5 days to submit statements and questions for 
submission in the record, and any answers to those questions 
provided by the panelists, also be included in the record. 
Without objection, so-ordered.
    I ask for unanimous consent that all Members present be 
permitted to participate in the hearing. Without objection, so-
ordered.
    Let me explain a little bit what our committee is and what 
we're doing here today. As you can tell, that the last thing I 
just read, without objection it is so-ordered that Members are 
permitted be able to participate in the hearing, and some of 
these ground rules, one thing that has been unusual about this 
subcommittee is that we've been working on a bipartisan basis, 
because I've been working very closely with the ranking member, 
Elijah Cummings. Because we're working on a bipartisan basis, 
we're able to hold hearings regardless of who is able to come 
at a particular point, and have been able to do these things 
pretty much on a bipartisan basis, which is relatively unusual 
right now in Congress, and that's been a very important part of 
our work here.
    We're an oversight committee. We're not a legislative 
committee. Any bills that come and relate to this, will have to 
roll to the Natural Resources Committee, where I'm currently on 
leave and Mr. Renzi is on it. What we do is as Government 
Reform, since I've been in Congress since 1994, I've done 
everything from Waco to investigations and administration to 
doing oversight and going down into New Orleans and 
Mississippi. And probably most people recently know we are the 
committee where Mark McGuire said that he didn't want to talk 
about the past, and ultimately you will see why we swear in our 
witnesses, and we're going through to find out whether in fact 
he did commit perjury, and he will be prosecuted for perjury on 
steroids.
    Our job, if you look at Congress, is that a committee like 
Resources passes legislation related to parks and other 
matters. The Appropriations Committee then has to appropriate 
inside those guidelines. The Government Reform Committee then 
is responsible for seeing whether or not the money and policies 
are accomplishing the goals that Congress intended, to overlook 
the White House and different executive branch agencies, and 
then to make recommendations back to the authorizing 
committees, and, of course, we all sit on authorizing 
committees, and some sit on appropriating committees, as well, 
and that's the theory of how this works.
    It doesn't work exactly that way in practice. People all 
try to make sure that other people aren't looking over their 
shoulder, but, in fact, what we have done in this subcommittee, 
which is predominantly narcotics policy, is pick an issue every 
2 years where we focus. A number of years ago it was on border. 
Two years ago it was on faith-based, and this 2-year term we're 
doing a series of hearings that will be somewhere between 8 and 
10 on national parks. We will report likely to on the border 
and there is a foundational thing in the works in the 
subcommittee over at Homeland Security.
    That said, it is policy of the Government Reform Committee 
to swear in all our witnesses, so our first panel of Richard 
Frost, associate regional director of communications and 
external relations of the Intermountain Region of the National 
Park Service, and he will be joined by Joe Alston, 
superintendent of the Grand Canyon National Park, and Palma 
Wilson, superintendent of the Flagstaff Area Monuments, who are 
not official witnesses, but will be available to answer 
questions, and I'm going to make a side point here.
    I very much appreciate the evolution of this process with 
the National Park Service. I want to say on the record that the 
National Park Service feels this pressure a lot, but so does 
every other agency we do, and that is ordinarily we would like 
to check every single statement and every comma and every semi-
colon you use. That is standard when we do oversight. Official 
testimony has to be scrubbed from so many different places and 
worked through, and initially there was a lot of consternation 
about this series of hearings from the administration. As we've 
worked together, we now have superintendents that can come but 
not give an official scrubbed statement and field questions. We 
will try not to get your careers ended with questions. We 
encourage you to be open and honest, but if it's too 
uncomfortable, just be somewhat political in your statements, 
and I understand that.
    The goal here is not to finger-point. As you know, I'm a 
Republican and the Members here are Republicans, and we're not 
trying to--we're all trying to figure out how to pay for 
Katrina, we're all trying to figure out how to do these things, 
but we're passionately committed to know the truth, because 
Congress can't make decisions on how best to fund our parks, if 
we don't know, in fact, what's happening in this process, and 
that's why we need the openness. We need to know where we have 
disagreements on how we're going to fund it, and so on, but I 
very much appreciate the National Park Service now clearing and 
allowing more and more open testimony to be moved through this 
series of hearings.
    And, Tom, you directly know, and Steve Martin, and others, 
I think we've made progress at the Department of the Interior. 
Owen Vee is still not our biggest cheerleader, but we're 
working with them more, as well, and they understand what our 
goals are.
    With that said, will you each rise and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. Now, Mr. Frost, if you will give 
your opening statement.

  STATEMENT OF RICHARD M. FROST, ASSOCIATE REGIONAL DIRECTOR, 
COMMUNICATIONS AND EXTERNAL RELATIONS, INTERMOUNTAIN REGION OF 
                   THE NATIONAL PARK SERVICE

    Mr. Frost. Good morning, Mr. Chairman. I would like to 
summarize my testimony and request that my full testimony be 
entered into the record. Mr. Chairman, thank you so much for 
the opportunity to appear today to discuss management and 
operational issues affecting parks in the Intermountain Region. 
First, on behalf of the National Park Service, I would like to 
thank you and your colleagues in Congress for your continuing 
support of our parks and programs. Park-based funding has risen 
more than $150 million or 16 percent since fiscal year 2001. 
The increase for fiscal year 2004 to 2005, represented the 
largest park-based funding increase in NPS history. At a time 
when the Nation is faced with many challenges and demands for 
its financial resources, the NPS has been very fortunate.
    The Intermountain Region is an integral part of the NPS 
System, and in many ways the birthplace. It is the home of the 
first national monument and first national park, as well home 
of icons such as Yellowstone, Grand Canyon and Mesa Verde. The 
Region encompasses eight States and 82 park units. In 2004, we 
welcomed close to 39 million visitors and generated an 
estimated $850 million in economic benefits.
    To secure the legacy of our national parks, Director Fran 
Mainella has implemented the National Park Service Legacy 
Initiative, encompassing five themes; management excellence, 
sustainability, outdoor recreation, conservation, and 21st 
century relevancy.
    To address management excellence and ensure our 
credibility, both on the Hill and with American taxpayers, the 
Intermountain Region has developed a process to help parks 
determine if their core needs are being addressed in the most 
effective way, given each park's budget resources. This process 
has been adopted by the NPS as a whole.
    The core operations process is park-based and park-driven. 
In it, a park looks at a projection of its base budget over the 
next 5 years. It determines what its core needs are based on 
its enabling legislation and other relevant documents, and then 
develops a list of priorities. Once its priorities are set, a 
park looks at all the activities it performs with its current 
budget and personnel, and asks do these activities match our 
priorities, which activities are essential, if some activities 
are not essential, could those resources be redirected, or if 
the park has a projected budget deficit, could non-essential 
activities be eliminated to help the park operate within its 
means.
    This kind of information and analysis is essential for the 
credibility of park budgets. It helps park managers plan 
strategically for the future. This is not a one-time exercise, 
but a fundamental change in the way we do business.
    To date, 26 parks in the Intermountain Region have 
undergone this process, representing half the Region's 
employees. The National Park Service nationwide is committed to 
completing core operation reviews at 50 parks, and we 
anticipate all 82 Intermountain Region parks will have 
completed the process by 2009.
    The Legacy Initiative also emphasizes conservation of park 
resources. The Intermountain Region has established a record of 
providing superior stewardship of resources by applying 
innovative management. For example, we have made extensive use 
of the Cooperative Ecosystem Studies Units, which are composed 
of universities, governmental and non-profit partners that 
provide the NPS with research, technical assistance, and 
educational opportunities.
    Using CESUs, for each $1 in Intermountain Region funds, we 
are able to attract more than $40 from other fund sources. To 
enhance CESU capacity to provide support for cultural resource 
projects, the Intermountain Region has moved three cultural 
resource experts to the three CESUs that serve the 
Intermountain Region.
    Ensuring the long-term relevancy of the National Park 
System to America's diverse population is another important 
objective. To expand the relevance of our parks, the 
Intermountain Region has pioneered the teacher-ranger-teacher 
program. This program brings public school teachers from 
schools that serve under-privileged students into our parks to 
work as rangers. The teachers undergo training comparable to 
that of other seasonal park rangers, and then return to their 
classrooms with lesson plans developed from their park work 
experiences.
    The benefits of this program are significant. As teachers 
return to the classroom following their park experiences, they 
bring to students first-hand knowledge of parks these children 
might otherwise never have.
    In conclusion, we are deeply committed to protecting the 
places in our care and ensuring quality visitor experiences for 
present and future generations. We appreciate the support parks 
have received from Congress and from the American people. Thank 
you for the opportunity to be here today. I would be happy to 
respond to any questions you or any other members of the 
subcommittee might have. That completes my testimony.
    [The prepared statement of Mr. Frost follows:]

    [GRAPHIC] [TIFF OMITTED] T7379.002
    
    [GRAPHIC] [TIFF OMITTED] T7379.003
    
    [GRAPHIC] [TIFF OMITTED] T7379.004
    
    [GRAPHIC] [TIFF OMITTED] T7379.005
    
    [GRAPHIC] [TIFF OMITTED] T7379.006
    
    Mr. Souder. First, I ask for unanimous consent that all 
full statements and materials referred to by the witnesses be 
included in the record. Without objection, so-ordered.
    In the interest in full disclosure, I want to say that my 
son works for the National Park Service in the Denver office 
under Mr. Frost, and, in fact, I just learned yesterday that 
he's been active in some of the core ops issues we're going to 
be working with in this question of core ops, that as a 
business undergrad and MBA and a person that owns a private 
business, some of the questions are why didn't we do some of 
this a long time ago, but that's true generally across the 
Government, and I know there's been variations of this done for 
years.
    How would you first describe what you're doing in core 
operations and doing a budget analysis, how would you say this 
differs most from the way that you were doing it in parks?
    Mr. Frost. I don't think previously parks generally 
speaking had a way to look at the resources they were getting 
and determine whether or not they were going to the essential 
needs of the parks. They--until our budget request, I think 
park to park, weren't based on a substantial analysis of what 
those park needs really were, so parks grew often in sort of an 
ad hoc fashion, depending on the leadership and the personnel 
and the time and the place, and this is really the first time 
we've conducted I think a thorough analysis of why each park 
was established, what its essential needs are, what it really 
needs to be doing, given what Congress initially asked it to 
do, and then to ensure that the resources it has goes directly 
to those needs.
    Mr. Souder. We work basically working under the 5-minute 
rule, which we'll be a little generous with you here. Because 
this hearing is in the field, it's not quite like Washington, 
but when it goes red, that means on opening statement for the 
second panel, that you need to start winding up to the degree 
possible, and we want to make sure we get the information in 
the record, and for Members it means we now know we're ticking 
on overtime, because we need to do a second round.
    When you do a core ops review at a park, is there going to 
be--are you looking at producing a document that will then go 
to the regional, and then the national headquarters, that will 
give like a tiered view of here is what we have, here is what 
we believe our No. 1 priorities are? You do that to some degree 
now in your review process to set up what you're going to fund. 
How do you see this kind of tiered proposal looking different 
as it comes up to the regional office and national office in 
budgeting?
    Mr. Frost. This is a much more thorough analysis, and it 
will include a provisional management plan based on the park's 
priorities. It will include the kind of efficiencies the park 
believes it can gain under a park-based budget increase, or to 
support the need for additional funds if it shows that it can't 
be used core operations, and each park will generate with the 
help of the regional office a report that goes to the director, 
and then that will be used as a credible source of information 
to go to Congress to explain what the needs of those individual 
parks are.
    Mr. Souder. I don't want to--what's unusual about this 
Committee, because we do investigations, is we have the ability 
to subpoena any documents including e-mails and phone logs, 
which usually we don't have to do. Occasionally we do. I don't 
want to make this as an official document request at this point 
because I want to work on a friendly basis with the Park 
Service, but what I would like to see at some point, if you can 
talk to the regional and the national office so that we have a 
better idea of this, is if you have completed the core ops at 
any park where it is that far along, compare it to a document 
that came up previously so we can see the practical impact of 
how the decisionmaking process is occurring in the budgeting 
process and what that difference might be, and if we can just 
leave it and if you can take it back to regional headquarters 
and figure out what's the best way to work this through, 
because I don't want to stifle a new project while you're still 
trying to work through the details, but at the same time trying 
to understand what the funding levels are and how we're going 
to do tradeoffs in support for us to see what kind of requests 
are coming into the system, whether it be the Resources 
Committee, the Appropriations Committee, and what type of 
future requests are coming in and what form and what that 
process is in its early stages. So to the degree you can look 
through that, and then we'll in a friendly forum try to work 
out a document request that is workable inside the system.
    You also had an interesting quote in here in your written 
statement that 28 percent of the work force in Mesa Verde is 
comprised of Federal employees. One of the constant questions 
here is the basis for contracting out.
    Let me ask. Do you know, Ms. Wilson, how many in your park, 
or also at Grand Canyon, would be contracted out versus Federal 
employees in the group cluster of parks that you work with?
    Ms. Wilson. We actually have 34 permanent employees for the 
Flagstaff areas. You could probably estimate that we--for like 
our cultural resources, we contract out about 35 percent of our 
work there. For maintenance, we contract out about 50 percent 
of our work. I can't give you the exact numbers of people, but 
that will give you a rough idea of what we're currently 
contracting out.
    Mr. Souder. What about at Grand Canyon.
    Mr. Alston. I can't give you an exact number, but I suspect 
it's in that same range. When you look at our concession 
employees, I think we have about 1,500 concession employees, 
versus 400 permanent employees, and 360, I guess, is the actual 
number. You look at all of the other things we contract out, 
all the way from trash collection to research, to what have 
you, it may even be lower than that.
    Mr. Souder. Two kind of class pressure questions that come 
up constantly, and I want to raise it, and I'd like to get each 
of your comments. In contracting out, at what point in 
contracting out--let me give you a brief side point. We had a 
big discussion in Homeland Security about after the U.S. Visit 
Program, we found people were abusing that and were coming in 
who were on our terrorist watch list. So we decided arbitrarily 
that people at the desk at the State Department who were 
clearing people coming into the United States, should be 
Homeland Security employees. What we found by doing that, which 
was a form of contracting out to another Government agency, was 
that--that was the entry level point for training State 
Department employees, and if we knocked them out of that slot, 
the State Department employees were coming into a management 
position, and we had no integration system into the State 
Department.
    At what point in contracting out in the Park Service--I 
understand it produces flexibility, but at what point do we not 
then have a way for people to get started in the Park Service? 
We have seasonal rangers, and in contracting out our seasonal 
rangers, they're not just contracting out, they are your 
Federal employees. Is it now only seasonal rangers working in 
the Park Service and now you have seasonal rangers who have 
been doing it for 14 years trying to get permanent status. At 
what point do we dry up the system? Anybody want to take that?
    I know it's been debated on the floor of Congress a couple 
of times as far as have we been spending money and are looking 
at contracting out, and the figure you have is probably for the 
most heavily contracted out Federal agency forever.
    Mr. Frost. I think that has a lot to do with concessions 
operations, and those kinds of things. I think there are still 
a substantial number of positions for people to enter into the 
Park Service and become permanent civil servants.
    Ms. Wilson. I think one of the things we can show here in 
Flagstaff is some of the contracting out, as Rick mentioned in 
his statement, that we work closely with the CESUs, and one of 
the CESUs actually happens to at Northern Arizona University 
[NAU], and so through some of those contracts that we're doing, 
for example in archeology, is working with the students on NAU, 
so we're providing them some sort of basis of what the Park 
Service is all about, and, in fact, we have been able to hire 
some of those students on after they work as intern or contract 
basis. They come in as a term employee, and then eventually 
into a permanent position. And a lot of that was through the 
program banishing produce that we were able to bring on those 
archeologists. So there still is a conduit in some respects.
    Mr. Souder. One of the other controversial areas that you 
hear at every park and from every superintendent is a basic 
reduction in the number of seasonal or permanent that deal with 
interpretation, that as a Member of Congress struggling with--
if anybody goes with me to a park and wears a ranger hat, you 
are constantly asked where is the nearest restroom, how to a 
get to so and so, in addition to substantive questions, because 
clearly there is a market demand to capital ratings on the 
ground.
    On the other hand, in our whole society, whether it be at 
grocery stores, retail operations, or everywhere, being that 
type of ability, museums are declining and growing more 
automated.
    Do any of you want to comment on that question inside the 
Park Service, because it seems to me that we've had some 
improvement in visitor centers, some improvement in Internet, 
but this is the type of thing that we try to figure out to how 
to extend the value of the human interpretation into new 
methods, is going to be one of the big decisions that affect 
the personnel decision in the Park Service.
    Mr. Frost. One of the things that the core operations 
process is doing, is it looks at each division inside the park 
and determines if that division is able to carry out its 
mission, and interpretation is one of those divisions at every 
park, and in the core operations analyses that I have 
facilitated, interpretation really has worked hard to try to 
determine if it can do the job of educating visitors in a 
variety of new ways using new technology, while at the same 
time continuing to provide the fireside talks and the general 
interpretation that the public has come to love and respect in 
the parks.
    Mr. Souder. At Grand Canyon, have you seen more 
insignificant reduction in the numbers of people in 
interpretation in the talks? What kinds of pressures do you 
have?
    Mr. Alston. Well, as you said, the public truly loves that 
personal contact with our interpreters, and going back a little 
bit to your subject on contracting out, our employees--one of 
the things that we look at whether we can actually contract 
services in which you write into a contract, as you mentioned, 
when a visitor comes up and talks to somebody, they ask all of 
these questions, and whether that's a trash collector or 
whether that's one of our interpretive rangers, or myself, for 
that matter, that's part of the job we do, and that's an 
awfully hard thing to write into a contract.
    But I would say that we've done a pretty darn good job. 
We'd always love to have more folks out there talking to 
visitors. We'd love to give more programs, but we've tried to 
keep that division as whole as we possibly can, and, in fact, 
over the last 5 years we've moved a disproportionate number 
into that division. Of course, those folks, they all do good 
work and they would like to see more dollars there.
    Mr. Souder. Thank you. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I want to state again 
how impressed I am with the culture of our National Park 
Service. When someone comes to our natural parks and they do 
meet a ranger or someone who is in the National Park Service or 
working for them, you have been able to maintain an incredible 
sense of hosting the individual, welcoming the individual, and 
an incredible sense of maintaining the wonderment that each new 
person that comes in and sees these things for the first time 
is expressing, and your echoing of that is something that I 
think really does enhance the experience and is the type of 
culture that you really see throughout your organization, and I 
think any Fortune 500 company would be jealous. So certainly, 
my congratulations to the leadership that you're able to 
continue that and perpetuate it.
    Mr. Frost, my question is going to be for the entire panel, 
but it's going to focus a little bit on your portion of your 
title that includes external relations. The one thing that 
strikes me when you're in the natural park, is looking at the 
functions that the superintendents are responsible for or that 
everybody there is responsible for. They're mayors, they're 
managers, they're financial directors. They have all of these 
responsibilities in executing what is preservation of the 
assets that are there and making it welcoming for the people 
who come.
    In the welcoming address that we had here this morning, one 
of the first topics that was raised was the issue of economic 
development, and certainly our National Park System works 
closely with the communities that host them to enhance the 
economic development potential of the regions. You are in part 
an economic development driver, but it requires coordination 
and external relations.
    Many of the issues that I heard about during our tour, 
related also to issues of your host communities, some issues of 
Indian affairs, some issues of how small businesses might be 
able to impact and nurture, issues of housing, transportation 
access.
    A lot of these issues are addressed by other Federal 
agencies. So you have, one, the interaction between the 
National Park Service and the other Federal agencies that 
impact your operations, and, two, the communities that host 
you, and the hope that both you would have a better product and 
we would have greater economic development.
    So I ask that each of you would speak for a moment on your 
efforts and successes and things that you think we could do 
better in supporting your efforts on both inter-governmental 
relations on the local level and the Federal level. I look 
forward to your response, Mr. Frost.
    Mr. Frost. Well, I think the Park Service culture has 
undergone a bit of a shift in the last 10 years, and much of 
this is driven by the fact that in the eight States of the 
intermountain west and southwest, populations have exploded. So 
while park units were once sort of isolated islands far removed 
from people and the people came to them in the summertime to 
visit and went away, now they frequently find themselves 
surrounded by permanent communities, communities that have 
moved to that area largely because of the beautiful landscapes, 
the scenery, and the attractions, and the culture of those park 
units.
    As a result of that, we have worked very hard to welcome 
people and bring them into our decisionmaking process and make 
them a part of what we've done, and that is, you know, taking 
some time, and there have been some bumps along the way.
    One of the issues that I was first confronted with when I 
came to the Park Service is we had a superintendent that denied 
a special use permit for a run in his park, and the park was 
nearby the communities of Grand Junction. Well, the people of 
Grand Junction are politically very sophisticated. They went 
straight to their congressional delegation and they said, 
``Look at this guy, he's not letting us do an event that we've 
done in this park for years,'' and the superintendent had 
significant concerns. He had safety concerns with people 
because there were both cars and people on the road at the same 
time.
    What he hadn't done is gone to the community and explained, 
``Look, I'm really worried about your safety. Is there a way we 
could do this and be protected.'' He just did not sign the 
special use permit, told the people they weren't going to get 
it, and that was it.
    Well, they put a hold on the confirmation of the Director 
of the Park Service, the Senators did, until we figured out a 
way to make this work, and low and behold, we did figure out a 
way to make it work.
    But that I think kind of is more and more anomalous. We are 
more tuned into the people around us, how to talk with them in 
a way that is not bureaucratic, it's straightforward in taking 
their concerns into account, and still do the fundamental job 
we have to do with resource protection and visitor enjoyment.
    Ms. Wilson. One of the things I've seen over the years, 
I've been a superintendent for almost 12 years now in a variety 
of parks, and I think one the things we've seen over the years 
is where superintendents are no longer living in the parks. We 
are actually living in the communities where we are neighbors 
to the folks who are neighbors with the park.
    I think we've also seen a great deal of work here in 
Flagstaff. One of my members generally attends or regularly 
attends the tourism commission meetings, working very closely 
with the visitor and convention bureau so that we're looking at 
spreading out and lengthening the stay here for folks who are 
coming to Flagstaff. Besides going to Grand Canyon, we also 
have three other parks that are within a 30-mile radius of 
Flagstaff, and we want to work very closely with the city and 
the county and our other neighbors as we go through this.
    We're active participants in fire planning in the 
community. We were active participants a few years back with 
some land-use planning within the area. We're currently working 
very closely with the Forest Service because our land is 
adjacent to them, both in fire and interpretive partnerships 
and other types of things, knowing that we need to get together 
to get the job done, because all of us have constraints within 
our budget, and if we put ourselves--kind of get ourselves 
working together, we hopefully can get the job done a little 
bit better.
    Mr. Alston. Well, I would say that at Grand Canyon, we have 
a pretty remarkable relationship with our business community. 
Not only do we have a primary concessionaire that grosses 
literally tens and tens of millions of dollars, but--I would 
have to get the exact number, but probably a couple hundred 
other small businesses all the way from backpackers, to river 
runners, to tour guide companies, and trying to coordinate all 
of that, of course, is a lot of work, and all of those folks 
have their own special interests and want their access to be 
just right, and we try to work with them as best we can, but 
it's obviously a fairly daunting challenge.
    We are surrounding communities--my personal history with 
this has been one of a pretty simple axiom. If the community is 
doing well economically, then they're pretty darn supportive of 
what you are about, and if you're working with them and at 
least being attentive to their economic interest--you can't 
always accommodate every proposal that comes in the door, 
obviously.
    A lot of times, just by being receptive to new ideas, you 
can actually cause people to do a little better than they might 
otherwise, and that's been my experience, is that it's in our 
personal interest to have the people that are serving our 
visitors doing well, so that they can continue to provide good 
services, and I think that's--we see that throughout the 
National Park System, and I think you go into your meetings 
with the business community with sort of that attitude, it 
resolves a lot of your issues and you find out that you've got 
a lot of folks out there that have--they're here for the same 
reasons we are. They don't want to see the resources spoiled. 
They live in this part of the world because they truly value 
the quality of life that is here, and that's our common bound.
    Mr. Turner. In talking to superintendents or others about 
the National Park Service, one of the things we talk about in 
looking at funding and in needs, is the attendance of the 
parks, and when you talk to the various parks as to its 
attendance increasing, is it decreasing, what are you 
experiencing, one of the questions that arises inevitably is 
the methodology for determining attendance, and specifically 
it's even compounded in parks like Canyon de Chelly, at least 
that one would have, and even some data in which to turn in 
justifying their numbers.
    If I could get each of your thoughts on if you have a 
concern with the methodologies that are being applied and 
whether or not we're being successful in capturing the true 
attendance of our parks.
    Mr. Frost. Joe, why don't you start with that.
    Mr. Alston. If I could, I would like to refer to Leah back 
here who is our fee collection coordinator for the park for a 
number of years, and she has more than experience in counting 
numbers than anybody else that I'm aware of.
    Mr. Souder. Can you stand up. I'll give you the oath, and 
spell your name.
    Mr. Alston. Sorry to put you on the spot, Leah.
    Mr. Souder. Spell your name.
    Ms. McGinnis. Leah, L-e-a-h, McGinnis, M-c-G-i-n-n-i-s.
    [Witness sworn.]
    Ms. McGinnis. I would have to say that I think that we do a 
very good job of tracking our numbers right now. This last 
year, or actually over the last 2 years at Grand Canyon, we 
have integrated into our cash register system different ways of 
counting the cars that come in and the number of people that 
are in those cars, and we use those numbers and work with our 
regional office on statistics to make sure that the formulas 
that we have in our numbers match what is coming through the 
booth, and we made some adjustments to those numbers over this 
last year, and we feel that now we're doing a very good job of 
capturing the number of visitors and the types of visitors as 
far as recreational or non-recreational visitors to the park.
    Mr. Frost. We would be happy to provide you, too, with an 
explanation of the methodologies used in the Intermountain 
Region and nation-wide so you have that.
    Ms. Wilson. In the Flagstaff areas, we're obviously much 
smaller than the Grand Canyon. We probably get in a year what 
you get in a month, but we use basic methods, and that's 
literally hand counters, because in a lot of cases to access 
the most popular trail at Walnut Canyon, you go to the visitors 
center, and to be able to come in, we have hand counters, and 
things like that.
    We're starting in some cases, while redoing roads and 
things like that, to put traffic counters in to get a more 
accurate count, but I think we're fairly accurate in where we 
are right now.
    Mr. Souder. Mr. Renzi.
    Mr. Renzi. Thank you, Mr. Chairman. Mr. Frost, thank you 
for your testimony and your willingness to come out today. Let 
me cut to the chase here. With the increase in fees being 
proposed at the Grand Canyon from $20 to $25, we're looking at 
80 percent to be retained locally. Is that correct?
    Mr. Frost. Yes.
    Mr. Renzi. From a timing standpoint, from a needs analysis, 
what is driving the increase right now.
    Mr. Frost. Well, I'll let Joe answer this in greater 
detail, but partly it's to solve some of the transportation 
safety issues at the park.
    Mr. Alston. That is precisely right.
    Mr. Renzi. Is it current transportation, or is it the 
transportation plan that you and I have been working on?
    Mr. Alston. The one you and I have been working on.
    Mr. Renzi. So we're getting ready now for the rate increase 
now, and I guess you can anticipate new buses, the new 
construction of----
    Mr. Alston. Right, as well as the bypass road so we can 
help reduce the lines in the park.
    Mr. Renzi. Joe, when you and I were in Washington talking 
about the transportation plan, I was under the impression, and 
it's my own assumption probably, and you know I have great 
respect for you, that if an American patriot drives all away 
across country with his 12 kids, and they become a patriot 
because that drive with 12 kids is hard, and they get to the 
park, and the average American has an alternative to get on the 
bus which costs them a lot less compared to the fee now of 
possibly $25, then he's got an option at that point. But right 
now, how long will it be before there is an option to have, or 
is there an option right now, to have a lesser entrance fee for 
that family that has come all the way and made the trek like 
Mike made?
    Mr. Alston. I'm not sure what your question is.
    Mr. Renzi. Right now, you can either drive in with your car 
and pay the $25, or you could park outside.
    Mr. Alston. Right now there is no real alternative to get 
in the park.
    Mr. Renzi. My point is, shouldn't we wait to increase the 
fee until we have that alternative so that regular Americans 
have the option, they have something cheaper? I'm talking about 
timing issues.
    Mr. Alston. Yeah, well, part of that is that we need to get 
on with the business of trying to get that transportation 
system put in place.
    Mr. Renzi. That's right, so what you do is that really you 
don't have the money. When we talk about capital improvements, 
Congress is not stepping up from an appropriation standpoint to 
fund the transportation plan that we authorized.
    Mr. Alston. Well, I suppose that is one way of looking at 
it. We look at it a little different in that we have to put 
together a proposal to Congress for your consideration that 
lays out using those fee demonstration dollars to fund this in 
the absence of a line item appropriation.
    Mr. Renzi. In the absence of.
    Mr. Alston. Yes.
    Mr. Renzi. Why would we go with the line item? Why wouldn't 
we go with--maybe you don't want to go there.
    Mr. Alston. Yeah. No.
    Mr. Renzi. Mr. Frost, could you help me? Why wouldn't we 
go--you know I earmark. I have no problem earmarking for the 
park, but there's a lot of people that don't want to. Why would 
we go down there--if we are going to be holier than thou, why 
would we go with a line authorization and then transfer that 
over to an approps? Why do we go through the 3-year process.
    Mr. Frost. Well, you know, I think this is getting into a 
philosophical discussion, but I think part of it is when you 
come to a park like Grand Canyon and you pay the fee for that 
park, you're getting services at that park.
    Mr. Renzi. You're paying for infrastructure, but at $25, at 
what point does it become too much?
    Mr. Frost. Right, but, sir, you asked earlier, the family 
driving across the country, what can they expect? Well, if you 
buy a $50 park pass, you can stop at all the parks that 
Congressman Turner mentioned. You get a great deal. That sort 
of amortizes your costs to maybe $5 to $10 a park, depending on 
how ambitious you are. With Congressman Turner, is was probably 
about 50 cents, but you do get the great value, and it's about 
half of what it costs to fill up your mini-van.
    Mr. Renzi. If we're looking at raising fees, particularly 
tied to transportation plans as you want to do here, and we're 
looking at what I think is a limited amount of funding to the 
park to take care of operating costs, how do we then find the 
capital improvements that we need, for instance for the water 
infrastructure which is aged at the Grand Canyon? In the 2\1/2\ 
years that I've been here, I've been there nine times. I can't 
get away from this. It's beautiful. But I know what the Grand 
Canyon needs. I know the hardships there, and I know--I see the 
infrastructure degrading as it is right now.
    So my point is if we don't get out of the cycle of funding 
and finding new moneys through fees that are attached to 
capital improvements, and we don't go with authorization of 
line item appropriations, then we really are totally burdening 
the public, and we're burdening the public of those who are the 
most avid outdoorsmen, our healthiest public, our 
recreationalists.
    Mr. Frost. Well, I mean, there is, of course, a whole 
variety of pots of money that we draw from to do these things. 
We have fee demonstration dollars. We have site maintenance 
money. So----
    Mr. Renzi. I'm with you, but it's not enough.
    Mr. Frost. Well, that's exactly why we're doing this core 
operations analysis, because park to park, we want to be able 
to come to Congress with a straight face and say in this park 
at this time, these are our needs based on what Congress asked 
us to do with this public trust.
    Mr. Renzi. You bet they will come to us and say, ``We can't 
do the transportation funding unless you give us the money, 
otherwise don't ask us to spend the money studying it, don't 
ask us to take all the people off their regular jobs and go do 
it, and then not give us the money to do it on an authorization 
appropriations line, rather than constantly looking at fees. I 
think at $25, we're looking at a break point with the American 
people, in my opinion.
    What do you think about the program? I don't know if you 
want to comment on this. This would be like American to 
American maybe, possibly. American to American--sworn-in 
American to American. The Centennial Program, what would you 
think about new money, where would you go if you were in our 
shoes for new money, whether it's the Centennial Programs, the 
idea that Americans can send money from their tax--from their 
rebates from their taxes to the parks. Where else creatively 
would you all go for new money?
    Mr. Frost. I have to tell you that what I see as our 
obligation as a Federal agency, is to be able to look at the 
trust that we've been given, and to assess what our needs are, 
to be stewards of that trust, what resources we need to do that 
effectively, and then come to Congress and say 
straightforwardly this is what we need, and then it's up to 
Congress to tell us, well, we're going to give you this money 
in this way. You can raise your fees, we can give you an 
increased appropriation. You need to work with your partners. 
You need private sector money, but that's----
    Mr. Renzi. You look at the private sector and the non-
profits. In my opinion, our pockets now--without the non-
profits, we really are dead in the water. We really do have 
such a unique public private partnership right now, that the 
park themselves, I don't think would sustain themselves without 
it.
    Mr. Frost. I think we are increasing reliance tremendously 
on partners, but we ought to. We're all working together in 
this enterprise. We're not lone wolves by ourselves doing this 
job. We have to work with a number of people.
    Mr. Renzi. Thank you for your honesty.
    Mr. Chairman, thank you very much.
    Mr. Souder. Mr. Frost, I have a couple--we'll give this to 
you as a written question, but we're going to make a request 
for the--at least for the Arizona parks, what the staffing 
levels were in a couple of chosen years and what they are now 
so we can have a comparison of what's happening inside the 
parks.
    Do you have in the--I know in the bigger, more wilderness 
area park, but let's say here more predominantly in Arizona, do 
you have many in-holdings in the park?
    Mr. Frost. We have some in-holdings in the parks.
    Mr. Souder. In the other parks in the Intermountain Region 
where you have more in-holdings, do you keep by the Park 
Service--do you keep data on the amount of acreage in the in-
holdings by park?
    Mr. Frost. I think most parks know that individually. Don't 
they, Joe?
    Mr. Alston. Sure.
    Mr. Souder. Do you have that at a regional level?
    Mr. Frost. We can provide it. I don't have it off the top 
of my head.
    Mr. Souder. It's something that you keep as a data base.
    Mr. Frost. Absolutely.
    Mr. Souder. Do you have that also by dollar value estimate 
of what----
    Mr. Frost. Probably not, because we wouldn't get dollar 
value until somebody--one of the light in-holders said to us 
they were interested in either selling that park or selling 
that land and donating it, then we would have it assessed.
    Mr. Souder. The acreage and estimated dollar of people who 
desire to sell.
    Mr. Frost. We would probably have that, yes.
    Mr. Souder. Can we have that for the Intermountain? One of 
the things we're trying to figure out--one of the anchoring 
things around the Centennial Act and other things we're looking 
at, is the 100th birthday of the park is coming up, and we 
should plan ahead. Last time we really had a vision for the 
kind of Park Service in Lowell's vision in 1966, and the 
question is what can we do to prompt that type of vision. 
Should it be for employees and maintenance? Should it be let's 
close in-holdings? Are there gaps in the Park Service in that 
there should be some kind of accommodation thereof? And one 
thing that is absolutely clear is we have major in-holdings 
questions in the United States. If you could see what you have 
structured without having to do a bunch of research inside the 
Intermountain Division, which has many of our wilderness parks, 
as well as many of our smaller parks, and of those in-holdings, 
how many of those in-holdings are trying to sell now that we 
don't have the money to buy, versus those who conceivably could 
come on, and those who are grandfathered in who are never going 
to sell, and then as the pending resolution of the Colorado 
case--if was a person that their land was--that they had a time 
limit on it, and now they don't want to leave.
    Mr. Frost. That's I think very close to resolution.
    Mr. Souder. That is a terrible process on the in-holdings 
question, going into an agreement. I know one of our colleagues 
disagrees with that, and I'm shocked that he would be the 
person to disagree with that, but the whole question on the in-
holdings and trying to fill out the parks, has been huge, and 
the Indiana Dunes and the Sleeping Bear, National Lakeshore, 
clearly has erupted in Alaska in a big way with the family out 
by McCarthy, the pilgrims who are now gone, but it's a huge 
question, because in some parks, you have the parks destroyed 
if you don't resolve this in-holdings question, and I was just 
up to Acadia and they have a huge question at Acadia with 
questions on in-holdings, and that maybe to somebody that ought 
to be a priority.
    When you look at core ops, do you--in trying to analyze the 
vision of the park--this is an interesting process. Here you 
have in-holdings in the park where you have a willing seller. 
You have traffic problems which are in every park. We were just 
hearing about Grand Canyon. You have questions about the number 
of employees and whether--almost all of our parks have pressure 
on the number of employees they have right now, combined with 
wilderness responsibilities, fish and wildlife 
responsibilities, archeological responsibilities, how exactly 
do you bring these together to prioritize? Because there are 
different types of goals that may or may not be related. They 
are all related kind of to a mission.
    Mr. Frost. That's correct. What we do is we look at the 
enabling legislation of the park first, and in some parks it's 
very specific, and in some parks it's much more general, but 
that's a good start because that's the direction that Congress 
has given us with about what we should do with that particular 
park to park need.
    Mr. Souder. The Grand Canyon has been through this process.
    Mr. Frost. It's going through this process right now.
    Mr. Souder. So, for example, in Grand Canyon, in-holdings 
questions.
    Mr. Alston. As far as I know, we have only one small in-
holding on the north side of that park of about 160 acres, and 
there's no adverse use out there, so it's not an issue for us.
    Mr. Souder. So clearly transportation, local traffic using 
road that goes through, how many people can be on the rim in 
July and August and not be on top of each other, and 
observation by folks going up three decks. How do you balance 
the transportation system versus the priority for 
interpretation, versus the priority for preservation, versus 
the getting off on things which probably were there buried in 
the original enabling legislation, but may not have been a 
major focus because the major focus was preserving the canyon, 
not saving mining sites, Native American sites, archeological 
questions, probably one of the most driving questions in the 
enabling legislation. People were looking at preserving the 
Canyon, and yet now other things may have come up. How did you 
resolve this?
    Mr. Frost. I think what you do is you look at things that 
the Department has been asked to do through enabling 
legislation and other documents, and then the park sets its 
priorities based on what it feels it has to do to meet its 
basic resource protection, visitor enjoyment, and safety goals. 
The park sets those priorities and then looks at it. The whole 
impact activity such as cleaning the bathrooms, the road 
maintenance, the snow removal, to scientific examination, to 
resource protection, to law enforcement, and see if those--
match those activities against the priorities, and see if those 
activities are really clearly directed at those priorities, and 
if they're not, to adjust them so they're really getting the 
people in the park doing the job that the park basically needs 
to do, and in that process it falls out whether you need to, 
for example, maintain back country roads that you have had 
maintained before, is that something that you need to do, or 
are you providing education programs in the schools nearby. Is 
that something that somebody else can take up that you really 
ought to be doing as part of your park resources and protection 
directive. It is the whole variety of activities that the parks 
are engaged in to try and make sure that those activities match 
with the parks needs and priorities.
    Mr. Souder. Are you setting grids up with points and then 
waiting with the different variables; is that how you----
    Mr. Frost. Well, you look at all of the activities division 
by division, and the park goes through this in the initial 
exercise, and then in subsequent months and it tries to make 
sure that what it's people are on the ground doing, matches up 
with the priorities it sets for itself, based on the directives 
it's been given by Congress and through other supporting 
documents, and frequently there's a little bit of a disconnect 
because often parks grow in sort of an ad hoc basis.
    There's project money to do this, or there is a very strong 
chief of interpretation or chief of maintenance that gets money 
to do other things, and it doesn't have the sort of a strategic 
plan, so we want to be able to come to Congress and say these 
are the things that the park is doing, this is what its needs 
are, and here is exactly what they are and why we said that.
    Mr. Souder. On the demonstration fee, if I could just 
pull--because this is a very unusual opportunity here at this 
hearing, and I know I'm going over with my followup questions. 
First off, one big thing we hear in backlog dollars--excuse 
me--in demonstration fee dollars, is that many parks would like 
to use that for operations, or at least part of that. Is there 
any park that has a demonstration fee that has eliminated the 
backlog?
    Mr. Frost. I think that sort of an eliminating the backlog 
is a loose--I mean, I have a house that was built in 1917. I 
don't think I'll ever eliminate that backlog as long as I live. 
I'll always be replacing sewer pipes or shingles or carpets, 
and while that is not a precise analogy, I think it is on 
point.
    Mr. Souder. Congress intended the demonstration fee to be 
mostly used for backlog or new projects. If we were to relax 
that, saying we're running short, how would you set a figure 
that if you've achieved 50 percent of your backlog, you could 
use 25 percent on operations? How would you--given the backlog 
is such an illusory figure, would we--because the goal here was 
not to use this fee for an annual raise.
    At the same time, sometimes the backlog may not be as 
urgent as in other places as the operations budget.
    Mr. Frost. Our condition assessment system and the FMFS 
data base we're putting together allows the park to look at its 
facilities and say these are facilities that are in poor 
condition, these are the facilities that are in good condition, 
this is the kind of work that needs to be done, and that does 
two things. One, it allows the Department to set its 
priorities, where it wants to put its resources and what we 
need most to protect, and, two, it will help us get a better 
handle on the illusive backlog figure.
    We are getting better every year at honing in on exactly 
what needs to be done inside the parks, and really that has 
been a process that we are undergoing that is going to help us 
be much more effective in targeting the resources.
    Mr. Souder. One of the major pressures in every park right 
now in questions is can transportation systems be cut back 
during peak seasons as opposed to the hema period. In Grand 
Canyon, if you used the demonstration fee, are you looking to 
use that fee as the primary source of funding, the sole source 
of funding for the new transportation system.
    Mr. Alston. Right now, we're looking at least the vast 
majority of that system being funded through fee demonstration.
    Mr. Souder. So how long would it take to build the 
transportation system to accumulate--would you borrow against 
it? How would you----
    Mr. Alston. Well, if we implement the $25 fee next year, 
that will help a great deal, but there is--we think we can get 
this done in 4 or 5 years. We presented to Congress a schedule 
that we think is realistic for paying for this primarily out of 
fee demonstration dollars.
    Mr. Souder. Could you submit a copy of that to this 
committee?
    Mr. Alston. Yes.
    Mr. Souder. And you think that--would that use from that 
period of time all the $25?
    Mr. Alston. I'm sorry?
    Mr. Souder. Would the entire demonstration fee be used?
    Mr. Alston. No. It would not have to be used. It would 
still leave us with $6 or $7 million a year to work on the 
backlog and other projects we have.
    Mr. Souder. Would it be sufficient then to maintain the 
system under that?
    Mr. Alston. That's our hope, yes.
    Mr. Souder. But it couldn't--I'm sorry. I forgot. 
Superintendent Rice is your Deputy.
    Mr. Alston. Yes. That is correct. Craig.
    Mr. Souder. Craig, could I swear you in.
    Mr. Axtell. Absolutely.
    Mr. Souder. Could you state your name and spell it for the 
record.
    Mr. Axtell. My name is Craig Axtell, C-r-a-i-g A-x-t-e-l-l.
    [Witness sworn.]
    Mr. Souder. Bryce has had a difficult challenge with your 
transportation systems. Could you explain a little bit what's 
happened and what the status of that is?
    Mr. Axtell. I can. We initially had a 5-year contract for 
both the staging area outside the park and the actual operation 
service contract for the shuttle, and perhaps what was done for 
that contract was not sufficient planning to coordinate our 
anticipated revenues with the cost of the contract.
    So unfortunately we had to use in that early period a 
substantial amount of our fee demonstration program moneys. 
That 5-year contract expired last year, so this past summer was 
the first year under a new contract. Again, a service contract, 
and, now for this year, our transportation revenues that we 
collect of roughly about $530,000 is about equal to our 
contract--our service contract. So we're really adjusting the 
number of hours we operate the shuttle, really closely with the 
amount of revenue we're getting, and fortunately for us, it 
really works out that is the amount of service hours, which is 
approximately 5,000 service hours. That takes care of the 
congestion at the various overlooks.
    It is a voluntary shuttle system, but it's very well 
accepted. A lot of people like it, and the community likes it. 
The business community likes it, and so right now we believe 
we're on track financially so that the transportation system is 
sustainable.
    Mr. Souder. What's your current fee and price?
    Mr. Axtell. It's $20, and half of that is the 
transportation fee; $10 is the actual entrance fee itself. The 
fee demonstration, and then $10 for the transportation fee.
    Mr. Souder. Thank you. We'll probably have some additional 
written questions, and you could provide for this hearing 
record anything you have in your transportation plan, some of 
that data, so we can kind of maybe group a couple of 
transportation things together at one hearing site, because 
this region has done more, and Grand Canyon has had this debate 
for a long time, and we kind of analyze as we go.
    If I could ask Mr. Frost, is Zion operated under a 
similar--they have had a transportation plan for a while?
    Mr. Frost. They do. They have had a transportation plan a 
while.
    Mr. Souder. And is it similarly operated through a 
demonstration fee.
    Mr. Frost. Yes. Is it voluntary, too, Craig?
    Mr. Axtell. Zion is a little different. There is a 
mandatory shuttle system for part of the year up the main part 
of the canyon, but there's other portions of Zion park that are 
open where you can drive in with your automobile. Their 
entrance fee is the same as Bryce; $20.
    Mr. Souder. What about Rocky Mountain? That is a small----
    Mr. Frost. It's a small bus system that is voluntary, that 
takes you to a specific part of the park.
    Mr. Souder. Is there a BMF?
    Mr. Frost. No.
    Mr. Souder. Is it partly funded through the demonstration 
fee?
    Mr. Frost. I think it is.
    Mr. Souder. If you can provide something on that, and also 
any other--because Bryce and Zion probably are two of the 
biggest right now that have the shuttle system. I'm trying to 
think if they had one--I saw one in Acadia. There are others 
that have variations, and interestingly, in Acadia, the Island 
Explorer is heavily funded by L.L. Bean through private sector 
donations and other ways that have integrated the local 
community around it, and there are multiple creative ways, as 
we have the pressures on tax dollars, of how to do this.
    And I also want to say for the record that we have another 
hearing record for the Members here we have been looking at, 
and I would appreciate any suggestions from any of the 
witnesses today and anybody else that wants to submit this, how 
to do this, because basically the Resources and the 
Appropriations Committee have more or less agreed with this 
question, and that is one of the problems with rising 
demonstration fees. I believe there are two problems. One is 
the parks pass is too cheap relative to the individual park, 
and I know that Bryce and Zion always argue who is going to get 
the payload on the park pass, but the more critical thing here 
is that the concern is low income people aren't going to be 
able to get into the parks, and there's general consensus in 
the Appropriations Committee, and I've talked to the Honorable 
chairman in the Resource Committee, we need a way and everyone 
agrees we need a way, to basically give a refundable credit to 
low income people.
    The question is how do we establish and get them a parks 
pass. One way is directly through their tax return. There are 
some objections to turning a tax return into that type of 
thing, but if you are under a certain level, you can request 
from NPS a parks pass. Another thing would be to show at the 
gate--what would you show at the gate? That your kids are 
eligible for low-income lunch? But how to do it in a non-stigma 
way at the gate? That's why we're trying to figure out a way to 
do this, but nobody is trying to put pressure on. But for a 
middle class family, it's still a very cheap event that, 
particularly if you get a parks pass, but we don't want to 
price people we're trying to get into the park system out of 
the market with entry fees and the cost of the parks pass.
    So anybody that has a proposal, we've toyed around with 
that, but Chairman Regula, Hanson, Young, Pombo, I don't think 
there's opposition to this. It's a question I have how to 
implement that. Any other questions, Mr. Turner, Mr. Renzi?
    Mr. Renzi. I have one followup. Mr. Frost, when you look at 
the Grand Canyon as one of those visited parks in all of 
America, if not the most visited, and you look at the fact that 
the funding for the Grand Canyon is not even in the top 10, you 
look at the fact that it's one the eight wonders of the world. 
Do you think of--the demonstration fees that you collect in the 
park, the 20 percent that doesn't stay local, it goes back 
where?
    Mr. Frost. It goes to other parks that don't collect fees 
and they can apply for some of that money.
    Mr. Renzi. Do you think it would be reasonable for Congress 
to look at a formula where if there's such a disparity between 
the number of visitors, the infrastructure needs particularly 
of the Grand Canyon, the disparity with the fact that it's not 
in the top 10 in funding, that maybe until we do get caught up, 
that 20 percent that is leaving, should stay local.
    Mr. Frost. I defer to policymakers with greater depth and 
vision on that.
    Mr. Renzi. Unfortunately, my vision is somewhat relying on 
your vision.
    Mr. Souder. May I make a brief comment on that. It is 
really interesting because a number of years ago at Apostle 
Island, anyone coming in from western Nebraska from one of 
the--at Scott's Bluff, basically everybody going west stops 
there, and they have an entrance fee, so they collect this huge 
amount of entrance fees with hardly any park, and Apostle 
Islands has all these islands and nobody goes into the visitors 
center. All these boats come in and they have no way to collect 
the entrance fee.
    So less than 10 percent of the people at Apostle Islands 
pay an entrance fee, and they have all these projects that need 
to be taken care of and don't have any entrance dollars. So the 
proposal was to kind of address these extremes.
    But you have an interesting variation, which is if you, in 
fact, have a backlog, why is it going to spread, and the 
question is how do we measure that, and one of the things if 
you could take back, Rick, as a request to Intermountain, is 
would you have data inside that would enable us to make that 
kind of a decision? Does the data even exist, because the whole 
intent of this was to cover a lot of the little parks that 
don't get the entrance fees or parks that don't have a way to 
collect, but--and the assumption was that certain parks were 
accumulating dollars, but what about if we aren't going to do 
line item questions at Grand Canyon, why should they be 
deferring money over to the National Park Service and then have 
us have to do a line item to cover something that they already 
have the dollars for.
    Mr. Frost. I'm thinking this is because Joe is such an 
incredibly generous guy.
    Mr. Alston. I worry about that generosity. I would like to 
answer your question. One initiative that has been out there, 
and people have played with this for a long time, but it seems 
to have generated a little enthusiasm here lately, is 
developing something called the Score Report which takes into 
consideration all of the complexities of managing, I suppose, 
any land management agency, like visitation, size of the area, 
wilderness components, size of the concession operation, number 
of miles of roads, number of miles of trails, all of the things 
that go into--number of different housing units, all of the 
things that go into putting pressure on the budgets of the 
parks and trying to get some sort of universal or consistent 
handle on that whole question, and really I don't know where 
they are with that right now, but I know it's been back in here 
in the last several years.
    Mr. Souder. You said the Score Report?
    Ms. Wilson. The Score Card.
    Mr. Alston. Score Card, actually.
    Mr. Turner. I wanted to give one comment. We have an 
opportunity to submit questions and then followup. I would like 
to work with both Joe and Craig to followup with written 
questions to highlight things I know you are working on, and I 
will be contacting you to discuss the format of those 
questions, but they will go along with the issue of Bryce and 
your transportation system and the need for legislative 
authority that will help you with your contracting process.
    And then with the Grand Canyon, two of the things that 
struck me in the discussions that I've heard relates to your 
clean-up issues with respect to the mines and the success that 
you've been having there, and some of the difficulties, and the 
second is the important issue of we need a newer air space and 
how we might be able to assume greater effectiveness.
    And I wanted to add one point to the issue of the park 
pass. Those park passes are worth such gold if you think of the 
Norman Rockwell moment where my wife and I, upon losing our 
park pass into a crevasse in our dash. We are in the parking 
lot outside of the national park where we have our legs stuck 
out our doors, we have flashlights and all kinds of 
contraptions, with our kids peering over the back seat hoping 
we would not have lost the pass, and were successful in digging 
it out.
    So it was worth the effort. The park pass certainly is one 
of the incredible opportunities that families have when they do 
plan the great American vacation and go to multiple parks. We 
certainly, I think the chairman's statements are very 
important, to look at how does the funding of our national 
parks get impacted by the manner in which we construct them. So 
I want to do it right and in a way that enhances your efforts.
    Mr. Souder. Thank you each for your testimony today. We 
will followup with some additional questions. The first panel 
is dismissed.
    The second panel could come forward. Our second panel is 
composed of Deborah Tuck, president of the Grand Canyon 
National Park Foundation; Bob Keiter, board member in the 
National Parks Conservation Association [NPCA]; Kimberly Spurr, 
board member of the Arizona Archaeological Council; and Rick 
Smith, former associate regional director of the Natural and 
Cultural Resources, Southwest Regional Office of the National 
Park Service. As soon as you get settled, I'll have you all 
stand.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. We thank you for coming today, 
look forward to your testimony. We'll start with Ms. Tuck.
    Ms. Tuck. We have a question. Mr. Keiter's testimony is 
about the parks of this Region. My testimony is about one park. 
Do you want to still start with me?
    Mr. Souder. Why don't we start with Mr. Keiter. You may 
proceed to give your testimony.

    STATEMENTS OF BOB KEITER, BOARD MEMBER, NATIONAL PARKS 
CONSERVATION ASSOCIATION, NPCA; DEBORAH TUCK, PRESIDENT, GRAND 
CANYON NATIONAL PARK FOUNDATION; KIMBERLY SPURR, BOARD MEMBER, 
    ARIZONA ARCHAEOLOGICAL COUNCIL; AND RICK SMITH, FORMER 
  ASSOCIATE REGIONAL DIRECTOR, NATURAL AND CULTURAL RESOURCES

                    STATEMENT OF BOB KEITER

    Mr. Keiter. Thank you, Mr. Chairman, and members of this 
subcommittee. I am pleased to appear before you today to 
discuss the future of our national parks. Thank you for holding 
this important hearing to examine the challenges faced by our 
southwestern parks, and for your commitment to making our 
National Park System the best that it can be. My name is Bob 
Keiter. I am the Wallace Stegner professor of law and director 
of the Wallace Stegner Center for Land, Resources, and the 
Environment at the University of Utah, where I teach and write 
in the areas of natural resources, public lands, and 
constitutional law. I am here today in my capacity as a 7-year 
member of the National Parks Conservation Association Board of 
Trustees, and on behalf of NPCA's 300,000 members nationwide.
    On a personal note, I've had a life-long love affair with 
the parks ever since during the 1950's I grew up next to the 
C&O National--the C&O Canal, National Historic Park, which as 
you know is located just a few miles from the Capitol. I still 
treasure the countless hours that I spent exploring that 
wonderful place as a child.
    I would like to address three matters today that I know are 
of concern to this committee. First, the budgetary and funding 
challenges facing the southwestern parks; second, the recent 
ill-advised budget reconciliation proposal; and, third, equally 
ill-advised management policies rewrite proposal.
    As to funding, one of the pervasive challenges facing 
America's national parks, is chronic under-funding, a problem 
that did not occur overnight and that has grown under 
administrations and Congresses of both parties. Business plans 
developed in more than 70 national parks across the Nation, 
show that on average, parks operate with only two-thirds of the 
needed funding, a system-wide deficit in excess of $600 million 
annually.
    Compounding this problem are increased security demands 
placed on the parks since September 11, 2001. In addition, 
individual park sites have been forced to absorb a number of 
un-budgeted costs including costs of living adjustments, storm 
damage from Hurricanes Katrina and Rita, and other fixed costs.
    Here in Arizona, the effects of increased homeland security 
demands are evident at Organ Pipe Cactus National Monument 
which is located along the international border. The park has 
expended nearly $18 million between fiscal years 2003 and 2005, 
to build a vehicle barrier, to increase border security, and to 
protect the park resources. The park's resources staff now 
spends virtually all of their time monitoring law enforcement 
impacts on the park itself.
    Across the southwest, the national parks are facing an 
array of budgetary and funding challenges. Insufficient 
operations and maintenance funding is plaguing the Grand 
Canyon--I think we will hear much more about that later--
putting the park's fragile resources at risk.
    As simply one example, the park has recorded more than 
3,940 archeological sites and artifacts that tell the area's 
historic and its 10,000-year-old human history, but only 3 
percent of the park has been adequately surveyed, compromising 
the protection of archeological sites yet to be discovered.
    Looking at three national parks in my home State of Utah, 
Bryce, Canyonlands, and Zion, we find many of the same 
challenges. NPCA has produced State of the Park reports for all 
three parks within the past year, with the Zion report 
completed most recently in July of this year.
    The September 2004 State of the Parks report found that 
Canyonlands's overall stewardship capacity, that is the Park 
Service's ability to protect resources at the park, rated a 
score of poor, concluding that inadequate staffing and an 
annual funding shortfall of $2 million is limiting the Park 
Service's ability to address these resource threats and to meet 
the needs of nearly 400,000 visitors annually.
    NPCA's June 2005 State of the Park report found that Bryce 
Canyon's annual budget of $2.7 million falls $1.8 million short 
of what is needed annually to adequately maintain popular 
trails, educate visitors, and protect the nearly 40,000 museum 
artifacts.
    Our July 2005 State of the Parks report found that Zion 
National Park stewardship capacity rated a poor. The park's 
operational budget is $3.5 million short of what is needed to 
adequately care for resources and provide visitor services. 
This means Zion lacks the funding to hire more staff. The 
daily--the number of daily guided trail walks and ranger talks 
have been cut in half. No interpretive rangers are present at 
trail heads or Zion Lodge, and the park had been forced to deny 
ranger programs to school groups.
    These chronic shortfalls are particularly troubling because 
of the economic impacts that the parks generate in this area. 
Nationally, approximately $11 billion in economic impacts each 
year in tourism revenue alone, as well as 226,000 tourism 
related jobs in local economies.
    In the southwest, we see these impacts amount to more 
than--in the southwest where more than 36 million tourists 
visited the parks in Arizona, New Mexico, Utah and Nevada, we 
see similar economic impacts. These visitors spent over $1.6 
billion in the parks and gateway communities and supported over 
39,000 jobs and generated over $653 million in personal income 
for our communities, $377 million in Arizona alone.
    Very briefly, turning to the budget reconciliation matter, 
current Federal budgetary pressures have the potential to 
further jeopardize the parks. The recent House Resources 
Committee drafted legislation, could require the sale and 
development of 15 national parks and turn the remaining parks 
into commercial billboards.
    You should know that an NPCA Commission poll found that 
well over 75 percent of the respondents strongly opposed the 
sale or commercialization of our national parks. I should add 
that even during the height of World War II, when the Nation's 
very survival was an issue, Congress refused to open Olympic 
National Park to timber harvesting for constructing military 
airplanes. Surely, we can resist the same or even lesser 
budgetary pressures today.
    Regarding management policies, the Department of the 
Interior is considering revising the parks' management 
policies. The contemplated changes would radically alter the 
Park's Services interpretation of its mission and the 
fundamental purpose of the system which for almost 90 years has 
focused on preservation.
    When Congress established the National Parks System in 
1916, it expressly stated that the fundamental purpose of the 
system is to conserve the scenery and the natural and historic 
objects and the wildlife therein, and to provide for the 
enjoyment of the same unimpaired for the enjoyment of future 
generations.
    Since then, Congress has consistently reaffirmed that the 
Park Service is responsible for administering the system in 
conformity with this fundamental purpose, most recently in the 
1978 Redwood amendments to the Organic Act.
    The courts have regularly endorsed the same interpretation 
of the agency's mission, as has every scholar with whom I'm 
familiar who has examined the Organic Act and its history. The 
Department's efforts to rewrite the park management policies 
would undermine the very essence of the Organic Act's non-
impairment standard.
    As Pulitzer Prize Winning Author Wallace Stegner observed, 
the national parks are the best idea America ever had. Our 
national parks truly represent and speak to the essence of what 
it means to be an American and to share in the American 
experience. It is incumbent upon us, the generation now charged 
with caring for our Nation's heritage, to ensure that we leave 
these priceless places intact and un-impaired for our children, 
and indeed for generations yet unborn.
    Thank you, Mr. Chairman for holding this hearing, and I'm 
happy to answer any questions that the committee may have.
    [The prepared statement of Mr. Keiter follows:]

    [GRAPHIC] [TIFF OMITTED] T7379.007
    
    [GRAPHIC] [TIFF OMITTED] T7379.008
    
    [GRAPHIC] [TIFF OMITTED] T7379.009
    
    [GRAPHIC] [TIFF OMITTED] T7379.010
    
    [GRAPHIC] [TIFF OMITTED] T7379.011
    
    [GRAPHIC] [TIFF OMITTED] T7379.012
    
    [GRAPHIC] [TIFF OMITTED] T7379.013
    
    [GRAPHIC] [TIFF OMITTED] T7379.014
    
    [GRAPHIC] [TIFF OMITTED] T7379.015
    
    [GRAPHIC] [TIFF OMITTED] T7379.016
    
    [GRAPHIC] [TIFF OMITTED] T7379.017
    
    [GRAPHIC] [TIFF OMITTED] T7379.018
    
    [GRAPHIC] [TIFF OMITTED] T7379.019
    
    [GRAPHIC] [TIFF OMITTED] T7379.020
    
    [GRAPHIC] [TIFF OMITTED] T7379.021
    
    [GRAPHIC] [TIFF OMITTED] T7379.022
    
    [GRAPHIC] [TIFF OMITTED] T7379.023
    
    [GRAPHIC] [TIFF OMITTED] T7379.024
    
    [GRAPHIC] [TIFF OMITTED] T7379.025
    
    [GRAPHIC] [TIFF OMITTED] T7379.026
    
    [GRAPHIC] [TIFF OMITTED] T7379.027
    
    [GRAPHIC] [TIFF OMITTED] T7379.028
    
    [GRAPHIC] [TIFF OMITTED] T7379.029
    
    [GRAPHIC] [TIFF OMITTED] T7379.030
    
    [GRAPHIC] [TIFF OMITTED] T7379.031
    
    Mr. Souder. Thank you very much for your testimony. We'll 
now come back to Ms. Tuck.

                   STATEMENT OF DEBORAH TUCK

    Ms. Tuck. Thank you, Mr. Chairman, Representative Turner, 
and Representative Renzi. I think in fairness to all people who 
are here, I need to reveal that both Representative Souder and 
Representative Renzi are members of the Grand Canyon National 
Park Foundation. Thank you for your membership.
    My name is Deborah Tuck, and I'm here representing the 
Grand Canyon National Park Foundation, the not-for-profit 
fundraising partner of the National Park Service at the Grand 
Canyon. Today I'm going to talk about three things. One, I'm 
going to talk about philanthropy in the parks. Two, I'm going 
to talk with the budget situation at this park, and I'm going 
to try to illustrate for you in just one segment in the park 
why under-funding makes a difference.
    In the case today, I've chosen science. It's not because we 
couldn't do this for transportation, that we couldn't do it for 
interpretation. It is that it's just very--this is an easy way 
to show what under-funding means. In the interest of time, I've 
eliminated a whole section about volunteerism which is an equal 
part of our mission, in hopes that you will ask me about this 
during the questioning period in what under-funding has done to 
volunteerism in the park.
    Our mission at the Foundation is to preserve, protect and 
enhance the Grand Canyon National Park. That means we really 
restore historic buildings. We take care--we help the park take 
care of wildlife, and wildlife means everything from bacteria 
to buffalo. It means we build new trails, and it means that we 
restore historic trails.
    The challenge for the Foundation is that we must refine the 
role of stewardship for our national parks, because most 
Americans simply assume that caring for our parks is solely the 
responsibility of the Federal Government. I want to add, I know 
something about philanthropy. There are many people in this 
room who have spent their entire lives in the National Park 
Service. They do us a great service.
    I have spent my entire life in philanthropy. I run two 
family foundations for two of the most wealthy families in this 
country and did so for 16 years, and I have spent the rest of 
my life raising money for non-profit organizations. 
Unfortunately, the truth is that our national parks, as you've 
heard Mr. Keiter say, operate with just two-thirds of the 
needed funding. What does that mean in terms of the park I love 
and serve? A business plan study of this park in 2001, let's 
keep in mind that was 4 years ago, found that the annual 
operating shortfall of the Grand Canyon was $8.5 million. That 
included $1.76 million for natural resource protection, $1.5 
for interpretation, and $1 million for maintenance. In short, 
this park operates at 65 percent of what it needs every day to 
get the park up in the morning, put it through the day, and 
keep it safe through the night.
    Here is what I want to ask. Think about your favorite well-
run business. Would it still be operating at 65 percent? My hat 
is off to Joe Alston and the tremendous people who work at the 
Grand Canyon park. They do what private industry would and 
could not do. The truth is that the fiscal year 2006 budget 
enacted for the Department of the Interior, provided the NPS 
with its discretionary appropriation of $2.289 billion, or 1.1 
percent less than the NPS received in fiscal year 2005. And if 
you look at the National Park Service's own Web site, the 
fiscal year 2006 funding level is $2 million less than the 
agency received in fiscal year 2001, 5 years ago.
    At the Foundation, we're concerned about providing human, 
as well as financial resources in the park, and this is the 
part where I hope you will ask me about what a decrease in 
Federal funding has meant so that this park is turning away 
volunteers for boy scouts, Elder hostel and kids who don't want 
to spend their spring break down in Florida, but want to spend 
their spring break at the Grand Canyon.
    Protecting ecological diversity and maintaining the park, 
ought to be a core responsibility of the Park Service, but if 
the funding is simply not there, then we, the Foundation, must 
make a decision. Either we try to raise private funds to 
supplement insufficient Federal dollars, or we walk away and 
let programs die.
    So as I've said, the challenge for philanthropy is to 
define the role of stewardship, as many donors who understand 
the critical needs facing the park, nevertheless, want 
assurances that their private dollars will not be used to 
offset public responsibilities. They want us and the Park 
Service to maintain the bright line between Federal 
responsibility and private opportunity, but as you can see, Mr. 
Chairman, that bright line is becoming increasingly blurred.
    So now I'm going to talk about the example of just one 
department at the Grand Canyon; science. Science at the Grand 
Canyon, according to Bob Moon in our Intermountain West 
Regional Office, is 9 percent of our base budget. This is 
interesting, because in our park, unlike the other icon parks, 
the science division also includes planning and compliance. 
Generally, funding for science divisions at icon parks in the 
west average about 14 percent, so in reality, the science at 
the Grand Canyon, once you subtract compliance and planning, is 
about half of what the budget is for science at Yellowstone.
    Here is a snapshot of what that current situation means at 
the Grand Canyon. At the Grand Canyon there is only one 
wildlife biologist on the staff. This park covers 1.2 million 
acres. You can ask me about what this means, too.
    There are only two archeologists on staff, and Mr. Keiter 
has discussed what that means, and amazingly, at a park known 
around the world as a geological wonder, we have no practicing 
geologist at the park. Increasingly, the park is abandoning its 
park on getting rid of invasive species, unless it can be paid 
by soft money. We now pay for all of the work removing invasive 
vegetation below the rim--the Foundation.
    The establishment of the National Park Service in 1916, 
reflected a national consensus that natural and cultural 
resources contained within America's parks must be protected 
and held in the public trust and preserved for future 
generations. This park has a very special relationship with 
Teddy Roosevelt who, before there was a Park Service, set this 
land aside for all future generations, that it remain un-
impaired. It is a place that he said restores your sole.
    The word conservation and the concept of science-based 
management of resources, really didn't exist in the public 
sector until Roosevelt became President. Teddy Roosevelt knew 
50 years before it became fashionable, that careful 
environmental stewardship is our collective obligation to 
future generations. He established America's commitment to 
conservation, reflecting the sense we must safeguard our 
national treasures and our collective national heritage.
    There is a crisis in our national parks, and it's a quiet 
crisis, and I want to offer five suggestions of things that 
Congress could do. First, they need to increase the internal 
allocation to science within the Park Service. You cannot make 
resource-based decisions without science. Congress can act by 
restoring the President's Cooperative Conservation Initiative. 
This funded thousands of good projects in our Park Service, and 
those projects are now not being funded.
    Congress can act by passing the National Park Centennial 
Act as proposed by Arizona Senior U.S. Senator John McCain, and 
I'm proud to say our Congressman, Mr. Renzi.
    And the last point, within the Park Service budget, funding 
equity must be restored among the major icon national parks. 
The truth is that budgetary pain has not been equally shared 
between the parks.
    Earlier this year at the request of our board, we did some 
work on the funding for our park, as opposed to funding for 
other parks. What we found was that over a 12-year period of 
looking at 26 major national parks, the Grand Canyon got the 
lowest percentage increase. This is the No. 2 park in the 
country in terms of visitation. It's the No. 1 park in terms of 
foreign visitation.
    If we look at some other icon parks as comparison, the 
Grand Canyon received only 26 percent of the budgets for the 
three icon parks of the west, and Yellowstone garnered 41 
percent of the money for the icon parks in the west. 
Cumulatively, from 1998 through 2006, the Grand Canyon received 
a total of $14.67 million in capital appropriations, and 
Yellowstone received $125.9 million.
    For the current 5-year plan, fiscal year 2007 through 2010, 
the plan is for $2.5 million in capital funds for the Grand 
Canyon, and $42.4 more million for Yellowstone.
    Now, we don't begrudge Yellowstone, or anyone any more 
money, but this is unfair. Our Foundation would have to raise 
$150 million to catch up with Yellowstone.
    Those of us in friends organizations also know and 
understand that there is an increasing need for creative 
partnerships to seek private philanthropy support and an 
increasing need for citizen stewardship, stewardship that can 
be expressed through financial support for volunteerism in the 
park.
    Philanthropy has had a long and successful history in the 
national parks, and we're proud of that success, and while we'd 
like to maintain our existence on a bright line, today's budget 
realities demand that we refine the role that private 
philanthropy and citizen stewardship can and ought to play.
    Maybe I'm a cock-eyed optimist, but I believe the American 
people still embrace Teddy Roosevelt's concept of conservation 
and environmental stewardship. Places like the Grand Canyon are 
part of our collective heritage, and we all share the 
responsibility to ensure protection of these places with all of 
their resources.
    Wallace Stegner was right. This is the most beautiful place 
on Earth. Thank you for your efforts to help us protect the 
Grand Canyon.
    [The prepared statement of Ms. Tuck follows:]

    [GRAPHIC] [TIFF OMITTED] T7379.032
    
    [GRAPHIC] [TIFF OMITTED] T7379.033
    
    [GRAPHIC] [TIFF OMITTED] T7379.034
    
    [GRAPHIC] [TIFF OMITTED] T7379.035
    
    [GRAPHIC] [TIFF OMITTED] T7379.036
    
    [GRAPHIC] [TIFF OMITTED] T7379.037
    
    [GRAPHIC] [TIFF OMITTED] T7379.038
    
    Mr. Souder. Thank you very much. Ms. Spurr.

                  STATEMENT OF KIMBERLY SPURR

    Ms. Spurr. Good morning. The Arizona Archaeological Council 
appreciates the opportunity to submit testimony to this 
subcommittee, and we appreciate your being here to listen to 
this. The Arizona Archaeological Council is a non-profit 
voluntary association existing to promote the goals of 
professional archeology in Arizona. Its stated mission is to 
preserve cultural resources through education and advocacy. Our 
membership includes professional and advocational archeologists 
working in academic, private business, local communities, 
Federal and State Government, and Tribal agencies.
    The AAC strongly supports the National Park Service's 
mission to preserve cultural resources, its long-term 
leadership in this regard, and the commitment of its employees. 
We applaud the flexible programs that the NPS has implemented, 
such as the CESUs for extending its limited funding.
    However, a number of recent changes in the NPS, including 
the re-organization of the Intermountain Regional Office and 
the changes to the Keeper of the National Register, add to the 
challenge of responsibly managing America's cultural resources. 
Those changes have been the subject of a lot of attention from 
the professional archeological community.
    Based upon information provided by the National Parks 
Conservation Association, the State of the Parks Program, a 
2004 by Colorado College's State the Rockies Program and input 
from professional archeologists in Arizona, the AAC submitted 
on May 25, 2005, a letter to Director Fran Mainella expressing 
our concerns about the asset management plan, the use of the 
FMFS system and qualifications of cultural resources personnel.
    This letter was also sent to the superintendents of parks 
in the Four Corners area. On September 8th, we received a reply 
from the Office of Director of the NPS. We are submitting 
copies of both of these letters with our testimony.
    The letter we received from the Director does not clarify 
our questions or adequately address our concerns. The letter 
was quite general in reply, and essentially directed us to 
contact each park unit with specific questions or issues that 
we had. Our concerns, however, lie with NPS-wide policies and 
procedures. We are, therefore, currently in the process of 
preparing a response, and we plan to continue this dialog with 
the NPS.
    As you will see in the letter that has been submitted for 
the record, we have basically three specific issues that we 
would like to open a dialog about. The first is the use of the 
single asset management system to evaluate the condition and 
assign maintenance funds to all park facilities. This is a 
system that essentially equates prehistoric and historic 
features as equal to modern buildings and infrastructures. The 
use of this system has a high potential to result in minimum 
funding for cultural resources preservation when budgets are 
tight. It basically comes down to cultural resources versus 
visitor facilities, and we feel that this is not in the best 
interest of cultural resources.
    Second, recent restructuring and personnel policies have 
resulted in supervisory positions being filled by people who do 
not necessarily meet the Secretary of Interior standards which 
are used throughout the archeological community to establish 
qualifications. The NPS should exemplify these qualifications 
that are required in the professional community throughout the 
United States, but it appears that cultural resources in some 
parks are suffering from daily and long-term decisions made by 
managers who lack appropriate training and are unaware or do 
not follow legal requirements and standards for cultural 
resource compliance.
    We have heard of several incidents where there has been 
damage to cultural resources because the superintendents or the 
managers directly in charge of daily operations, did not seem 
to be aware of standard procedures and legal requirements 
before development had taken place.
    Finally, we are concerned that the system of review for 
National Park Service undertaking, could be adversely impacting 
archeological resources. A programmatic agreement was set up in 
1995, which allows park superintendents to establish 
compliance, a task that is normally undertaken by the State 
Historic Preservation offices in each State in the country.
    We're concerned this system has led to a lack of rigorous 
compliance with Federal laws to protect cultural resources, and 
this is somewhat tied to the concern of personnel 
qualifications.
    The Arizona Archaeological Council is grateful for the 
opportunity to provide the subcommittee with our perspective on 
these changes in the National Park Service oversight.
    [The prepared statement of Ms. Spurr follows:]

    [GRAPHIC] [TIFF OMITTED] T7379.039
    
    [GRAPHIC] [TIFF OMITTED] T7379.040
    
    [GRAPHIC] [TIFF OMITTED] T7379.041
    
    [GRAPHIC] [TIFF OMITTED] T7379.042
    
    [GRAPHIC] [TIFF OMITTED] T7379.043
    
    [GRAPHIC] [TIFF OMITTED] T7379.044
    
    [GRAPHIC] [TIFF OMITTED] T7379.045
    
    [GRAPHIC] [TIFF OMITTED] T7379.046
    
    Mr. Souder. Thank you very much. Mr. Smith.

                    STATEMENT OF RICK SMITH

    Mr. Smith. Good morning, Mr. Chairman and other members of 
the subcommittee. My name is Richard Smith. I began my NPS 
career as a seasonal ranger in Yellowstone National Park in 
1959, and retired in 1994 as the Associate Regional Director 
for Natural and Cultural Resources in the National Park 
Service's former regional office in Santa Fe, NM. I, therefore, 
worked during both Republican and Democratic administrations.
    In between these dates, I served in Yosemite, at the 
Service's ranger training center here in Grand Canyon, in the 
Service's headquarters in Washington, DC, in Everglades 
National Park, in the Philadelphia Regional Office, in Carlsbad 
Caverns, in Guadalupe Mountains National Park in Santa Fe, with 
temporary assignments in Fredricksburg National Military 
Battlefield, and in Alaska. Following my retirement, I was 
asked to return to duty as the acting superintendent of 
Yellowstone National Park.
    I come before you today representing the Coalition of 
National Park Service Retirees, a group consisting of 435 
former employees of the Service, all of whom had experience 
similar to mine and many of whom were senior leaders.
    Mr. Chairman, this is the first time in the 89-year history 
of the National Park Service that its retirees have ever felt 
the need to join together to comment on the management of our 
Park System. Our group includes two former directors, 16 former 
regional directors, and more than 100 ex-superintendents. To 
quote an old cliche, we have been there and done that.
    What causes a group like this to give up fishing, hunting, 
travel and golf, what most retirees do, and instead join 
together to monitor how the political leadership of the 
Department of the Interior and our National Park Service are 
managing National Park Service areas. Quite frankly, Mr. 
Chairman, it's because we don't like what we see.
    We don't like it when these political leaders or their 
appointees instruct our colleagues who are still working to lie 
to the American people and call cutbacks in visitor services in 
parks service level adjustments. Park employees we know have 
told us the real story of reduction in visitor center hours, 
elimination of interpretative and environmental education 
programs, reduction in resources management activities, and 
even curtailment in resources protection programs. Parks simply 
don't have enough money for their annual operations.
    Now, we would normally applaud the effort going on in many 
parks in the Intermountain Region to conduct core management or 
core operations analyses. It appears to us, however, that the 
current analysis shows little regard for effectiveness in 
accomplishing park goals and objectives, as opposed to its 
emphasis on efficiency.
    Those conducting the core obligation analyses in parks are 
instructed to assume prior to the analysis that fully one-third 
of their employees are likely to be engaged in non core 
activities. I was the superintendent or deputy superintendent 
in four national parks. We never had one-third of our employees 
involved in work that did not directly contribute to 
accomplishing our mission. If the core operations analysis is 
just another excuse to reduce employee numbers, rather than 
seriously looking at park operations, then we believe the 
current employees will not be very willing participants in this 
exercise.
    We are deeply disappointed, Mr. Chairman, that the 
departmental--that a departmental political appointee, the 
former director of the Cody, Wyoming Chamber of Commerce, is a 
department's lead on a process that will radically alter the 
management policies of the National Park Service and impose a 
political agenda on those policies. We are disturbed that, 
despite the President's campaign pledge to eliminate the 
maintenance backlog in the National Park System, that the 
Congressional Research Service in March of this year, March 9, 
2005, estimated that the backlog is somewhere between $4.5 and 
$9.69 billion, depending on which assumption one used.
    Claims by the department political leadership that they 
have reduced the maintenance backlog by $4.9 billion in the 
last 4 years are bogus. Ask them how much of this is new money 
as opposed to regular maintenance funding. While the NPS 
conducts regular maintenance operations with available funds, 
the backlog just continues to grow.
    We are saddened when the political leadership continues to 
lead the way toward privatization and commercialization of our 
national parks. Do we really want to turn over park 
maintenance, park administration and resources management to 
the lowest bidder? Do we want to sell advertising space on park 
shuttle buses or on park brochures, or even sell off parks, as 
Representative Pombo recently suggested? I don't think so.
    Mr. Chairman, since 1872 with the establishment of 
Yellowstone National Park, each succeeding generation of 
Americans has had its opportunity speaking through its 
Representatives in Congress to add the areas to the System they 
believe deserved protection and perpetuity.
    As a matter of generational equity and of respect for those 
who came before us, we should manage these areas with the 
highest regard for their resource integrity and their ability 
to remind us who we are and what we are as a people and as a 
Nation. We should not be careless with this legacy, nor allow 
it to be subjected to a political agenda.
    I very much appreciate, Mr. Chairman, the opportunity to 
address you and members of the subcommittee this morning. I'll 
be pleased to try to answer any questions that you may have. 
Thank you.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T7379.047
    
    [GRAPHIC] [TIFF OMITTED] T7379.048
    
    [GRAPHIC] [TIFF OMITTED] T7379.049
    
    [GRAPHIC] [TIFF OMITTED] T7379.050
    
    [GRAPHIC] [TIFF OMITTED] T7379.051
    
    Mr. Souder. You know, Mr. Turner is going to have to leave, 
so I'm going to start off with Mr. Turner.
    Mr. Turner. Mr. Chairman, I appreciate that, and I 
appreciate all of the time that everyone has spent on both of 
these panels in preparing for coming before us. I've a plane to 
catch at 1:10, which is the difference between my getting back 
to D.C. today versus tomorrow, as you know, some of you I have 
communicated with, so I appreciate the chairman allowing me to 
ask this panel questions prior to the time that I need to 
depart.
    Mr. Smith, I got to tell you, in reading both your 
statement and in the hearing what you presented, I'm really 
disappointed in your statements. I'm really disappointed in the 
tenor of your statements. I read your statement beforehand and 
I was going to be interested in the manner in which you 
presented it. It really shows such an unbelievable contempt for 
people who work very, very hard for the National Park Service, 
some people which may have opinions which are different than 
yours and some people may have challenges which you currently 
are not facing, but I counted in your statement seven times you 
used the word ``political.''
    You have three people up here who were elected in a 
political process, and you will not hear us talking about 
political agendas or political issues. You will hear us talking 
about substantive issues facing the park district, and I think 
you have a tremendous opportunity with your association to 
advance issues that those that are on the inside of the system 
are not on a day-to-day basis free to do, but to do it in a 
manner that is so disparaging the people who are working on it, 
I don't think is helpful for the process, and I do not have a 
question for you.
    Ms. Tuck, I do have a question for you. You invited us to 
ask you about volunteers and the impacts the cuts are having 
with the volunteers, and I would like you to speak about that, 
and, also, I'm very interested in having the national parks and 
seeing the extent to which they're struggling with invasive 
species, and you mentioned that in your comments and also in 
your effort to assist the Grand Canyon in their eradication 
efforts.
    If you might also, after you complete your comments about 
the volunteers, speak a moment about that effort and its impact 
on the Grand Canyon.
    Ms. Tuck. OK. Thank you. I'm known for being long-winded, 
and when I practiced this morning, I topped out at 12 minutes, 
so I had to cut. So I know I still went over, but I did better 
than my usual record.
    Our Foundation, the budget of our park is $19 million. Over 
the last 5 years, we've given--we've raised $13.5 million for 
this park, with three employees. Last year alone, more than 
1,200 volunteers contributed 49,000 hours to a variety of--only 
resource protection. We're just measuring resource protection. 
I'm not measuring everything. And that's time valued by the 
National Park Service as $850,000.
    But the limited Federal funding has meant that the Park 
Service no longer has people who can train or supervise 
volunteers. We have had a long tradition of hosting 
Elderhostels, boy scouts. The relationship of people with 
parks, that's really important, and what we think that 
relationship is, is that stewardship is more than money. It is 
also service.
    There is one program, the Greenhouse Program at the Grand 
Canyon and the Re-vegetation Program that historically has been 
heavily reliant on volunteers. Over the last 6 fiscal years, 
that program alone got 90,000 volunteer hours, labor valued by 
the Park Service--we used this figure in a recent grant 
application to a private foundation, so these are the Park 
Service's figures. They valued that volunteer time at $1.5 
million.
    As a result of staff cuts, this important program at the 
Grand Canyon declined from nearly 19,000 in fiscal year 2004, 
to just over 6,000 in 2006. As a result of that, one of the 
things that we did is to decide that we would hire a half-time 
volunteer coordinator within the Foundation to help the park 
use volunteer experiences. These are people--these experiences 
volunteering in the park, make people stewards forever.
    I had--one of the most wonderful weekends of my summer, was 
spent on the North Rim with a bunch of Navajo boy scouts from 
Tuba City who had never been to the Grand Canyon, and they had 
the time of their lives, and I have to say that they asked to 
come back for their winter camping experience, and I'm going to 
be the only woman invited to the winter camping experience. So 
I'm pretty proud of this little group of boy scouts, and I 
think we need to look at what cutbacks mean in terms of 
cutbacks in terms of volunteers.
    The problem with invasive species is a horrible problem in 
all of our parks. You will see on the table right outside here 
a little brochure we did with Park Service staff, looking and 
focusing on the 10 most wanted invasive species in the park. 
The park is now using this brochure. It's going out with every 
back country permit. Some of the rangers have them so they can 
help identify them. It's a really difficult problem, and you 
can eradicate a species, and then if you don't come back in the 
next year and do additional clean-up work, some of--all of the 
work you did the first year can get lost.
    This year we raised $189,000 for the inner canyon 
vegetation, and we're currently looking--we have--we think 
we're going to get a grant for $250,000 to continue that 
program next year, but I think this is a core operation of the 
Park Service. It's not something that we should be doing.
    Mr. Turner. Thank you. I'm going to submit a followup 
question on the issue of invasive species. I want to thank you 
so much for holding this hearing. I learned so much about our 
national parks, and whenever I hear from those who have the 
responsibility of stewardship or those who are working 
diligently with them to preserve them for our country and our 
Nation, it gives us an ability to serve Americans better in 
Congress the more that we know of what's needed.
    I want to congratulate my fellow classmate Rick Renzi on 
his impeccable record on preserving and defending our national 
parks and those things that are in his back yard, and some of 
the policies that you pursue have a greater impact than just 
those that are in your district, because you certainly have a 
national perspective with respect to our national parks, and I 
thank you for your leadership there. Thank you, gentlemen, for 
including me.
    Mr. Souder. Thanks for coming.
    Mr. Renzi, would you like to go next?
    Mr. Renzi. Thank you, Mr. Chairman.
    Mike, thank you so very much for coming all the way from 
Ohio to be with us. I appreciate it.
    Mr. Keiter, I was really taken--and I want to thank you for 
your honesty when you said that over time both Republicans and 
Democrats deserve the blame over many administrations, so the 
under-funding problem has gone on for years. I feel like we've 
reached a point with the critical infrastructure, particularly 
some of the capital improvements--major capital--it's like a 
home that you didn't--as you described, that you haven't 
invested properly in maintaining.
    When you look at new sources of money, when you look at 
trying to make up the major deficit now that we're so far 
behind, can you share any kind of creative thoughts you have on 
ways for us to come up with that funding?
    Mr. Keiter. A few thoughts that have both occurred to 
myself and to NPCA, one obvious potential source of revenue, 
which I know that several of you have been involved with, would 
be obviously the Centennial Act, and the check off scheme that 
is included within that legislation, and that certainly is one 
potential source.
    I probably should add that NPCA has prepared several dozen 
State of the Parks reports that I alluded to in my testimony, 
and I believe you will find in those reports for each 
individual park some suggestions of potential additional 
revenue sources.
    Mr. Renzi. In the Centennial Program, how much money do you 
think from your outside budgeting look--how much money do you 
think we could raise on the Centennial program.
    Mr. Keiter. You're taking me into realms that a dirt lawyer 
would be very reluctant to venture into.
    Mr. Renzi. Do we have a projection on--that is the 
chairman's bill. I give him great credit for it. Do you have an 
idea of what the Centennial Program may raise over 5 years or 3 
years.
    Mr. Souder. No, to answer your question, because the way 
the Centennial Act is drafted, which won't pass in its current 
form because what it says is that the shortfall that sets the 
target goals of the amounts the departments are behind. Then it 
says what we don't raise is national Federal expenditures. It 
isn't matched. It is made up by the difference.
    I think the best opportunity we have here that is 
realistically within the budget, we are looking at something 
where the dollars are matched by Federal dollars, rather than 
the shortfall made up. But it's uncertain what that will be, 
and none of us really know, but it could be significant, 
particularly if there is a Federal match, because that would 
really help the Foundation as they go out and try to do that.
    Mr. Renzi. Particularly if we spend some money educating 
people on the idea that you could check on your tax form that 
your rebate money, money you may want to donate. I cut you off.
    Mr. Keiter. Well, just very quickly. The business plans 
that NPCA has done on a number of parks include some 
suggestions at the end of those plans for possible revenue 
sources. I don't have specifics right in front of me for 
individual parks, but we do have those business plans--or, 
excuse me--State of the Parks plans completed for several of 
the parks in this Region.
    Obviously private philanthropy is a potential source, but 
as we've heard today and as you're well aware, the key there is 
that this source of revenue has historically gone to provide 
the park with something that they do not otherwise have or 
receive or should expect through core operations and 
maintenance funding, and I think it's key that we maintain that 
distinction, and in some cases, as we've heard today, get back 
to maintaining that distinction.
    Mr. Renzi. Thank you very much.
    Mr. Smith, I know Mr. Turner took you to task. Mr. Pombo is 
a good friend of mine. He's chairman of my full committee, and 
he is a good man who is bipartisan. He has returned a lot of 
land to Native Americans. In your--the record needs to reflect 
an inaccuracy in your statement, which I read three times last 
night--I'm not here--I'm going to give you a chance to talk, 
but you said that the parks, the acreage in the system remain 
relatively static. You're aware Chairman Pombo pushed through 
legislation to add 122,000 acres to Petrified Forest. So that's 
inaccurate to say that about the man.
    What he said was the fact that his request to find out 
whether or not what it was going to cost should not have been 
released, and that request actually came out of the 
subcommittee.
    I do give you credit, though, sir, because with your 
criticism you did go and take five points on a call to action 
and try not to just criticize, but find solutions. When you 
look at new money and you look at--in my--I get criticized by 
some of my colleagues sometimes for earmarking. Somebody is 
going to earmark. You turn your money over to A DOT, they 
earmark at the State level. You turn your money over to the 
Park Service, they're going to earmark. So I use my earmarks to 
make up for the deficits and the deplorable conditions in my 
district.
    I then say on top of that we need to appropriate and 
authorize and look at those solutions, but authorization of 
appropriations can be a 2 or 3-year process, as we all know, so 
with the earmarks and with the authorization of appropriations, 
with creative solutions as we've seen coming out of the 
chairman, what else do you have as far as a solution for us to 
come up with new moneys, given the conditions that we are in 
the country?
    Mr. Smith. Well, Mr. Renzi, what we did in the call for 
action is to suggest the formation of a Blue Ribbon Committee, 
and I recognize that takes a couple of years, but we need to, I 
think, rethink how we fund the National Park System, and I 
think we need to rethink how we manage the National Park 
System.
    One of the things that has been talked about, and I think a 
commission like this could study, would be the removal of the 
National Park Service from the Department of the Interior and 
make it somewhat similar to the management of the Smithsonian, 
an independent agency that then would not--you know, I 
certainly am not just critical of the current administration. 
Other administrations, as you pointed out, have contributed to 
this problem, but under--something that kind of gives us a 
fresh look, because what's happening now is that we're down 
this path of annual appropriations. The National Park Service 
is part of the Department of the Interior, and it isn't 
working. It doesn't work very well, and our parks are slowly 
declining, and the reason--and as proof of that, you're holding 
these hearings.
    Mr. Renzi. I agree.
    Mr. Smith. So I think we need to do that. We also 
suggested, Mr. Congressman, the formation of a technical 
committee that would advise this Blue Ribbon Commission on this 
horrible problem with the maintenance backlog. I applaud the 
Park Service now for its new maintenance management system. I 
went through the first generation of computerized maintenance 
management system, but to separate fact from fancy--to separate 
fact from fancy and bring to the American public in time for 
the Centennial of the Park Service, 2016, a plan to resuscitate 
and reinvigorate the management of our National Park System.
    Mr. Renzi. Thank you. Deborah, I want to thank you, because 
you have mentored me in areas when I needed knowledge, and you 
and I also have been great friends, and the trips I've taken to 
the Grand Canyon, you have helped me--we've worked on projects 
together.
    Since you've been around over the last 5 years, how much 
money has your organization raised roughly?
    Ms. Tuck. About $13.5 million.
    Mr. Renzi. And the goals that you have in the future are 
phenomenal. When you look at taking the $13 million and change 
that you raised and putting it into different projects, is 
there a coordinated effort? Are you able to know what Joe needs 
to where you could stop the bleeding, or is it that you're--go 
ahead.
    Ms. Tuck. Yes and no. You know, we can always improve, but 
the Foundation--and I think this is true of all of the friends 
organizations--we're not an independent agency. We're not co-
dependent, but we're not an independent agency, either, so what 
we raise money for are projects that Joe and I agree upon.
    I think what would be helpful is when the park starts its 
budgeting process, because Park Service people don't 
necessarily know what philanthropic possibilities are, that, in 
fact, the Foundation at the local level sit down with the park 
managers and hear what the needs are, so that you can say, 
``Gee, you're talking about''--for example, I'm not sure how 
this happened, but there was a renovation of a railroad station 
at the Grand Canyon. Well, there are a couple of different 
kinds of Federal sources and national sources in which that 
money could have come out of, so I think that we could improve 
that a little bit, but one of the things we're contemplating 
doing, we have 660 miles of trail below the rim. We have 
880,000 hikers on those trails, so one of Joe's biggest 
problems every year is how do I find the money to repair the 
trails. You know our climate. You know what happens when the 
Bright Angel washes out. So we're hoping to create a $20 
million endowment in honor of a member of our board and 
Arizona's first person in the cabinet, Stewart Udall, so that 
every year we will produce for the park $1 million if we meet 
that goal, so that Joe no longer has to worry about where is 
the money going to come to repair our trails.
    But here is your responsibility and the responsibility of 
the other elected officials. Then once he has that, don't 
downgrade the dollars so that if he's had $19 million, you can 
say, ``Oh, Joe, you've got $1 million a year, so therefore 
you're only going to get $18 million.'' That's not fair.
    Mr. Renzi. I agree.
    Ms. Tuck. What foundations are doing is providing the 
margin of excellence, not meeting core operations money. That's 
where we should be.
    Mr. Renzi. I agree. Mr. Chairman, thank you very much.
    Mr. Souder. I thank you for your testimony. Each one of 
these hearings, we learn more, and it gets harder and not 
easier to try to figure anything out about how to deal with 
this.
    First let me, Mr. Keiter, say that without the data and 
regular information from the NPCA, it would be impossible to 
hold these hearings. And to the degree we can coordinate 
together, which is not easy in the political environment we're 
in, we can increasingly delineate the fact that the decisions 
that we're making, that each year we've tried to increase 
funding. We've worked with that on a regular basis, and in the 
perspective of the overall discretionary budget, the Park 
Service has done well. That means they're falling less behind 
than every other agency in the U.S. Government.
    I'm going to digress a second on a couple points. You gave 
me questions. It's our tremendous challenge as we look at this, 
that all of us sit on all kind of committees, and this is a 
zero sum game, and sometimes people advocate for the parks or 
advocate for other things, don't understand that this is a zero 
sum game.
    The question is, is each marginal thing we're going to do 
in the parks, is that worth reducing the amount we pay for 
prescription drugs for the senior, is it worth reducing the 
what we're paying for Katrina for people who are coming back 
and make them pay more of their share? We have to make tough 
decisions of whether we're going to have 8 percent, 12 percent, 
or 20 percent flu vaccinations held back in case we get hit 
with the bird flu. If we increase that, it isn't available for 
parks. It's a zero sum game.
    We can have philosophical arguments about taxation, but the 
fact is that no party in any State is increasing taxes right 
now. There may be some shifting around in things, but if you 
look at what's happening in welfare expenditures and juvenile 
delinquency and mental health, all funds are going down at the 
State and Federal level.
    Part of our problem here, quite bluntly, is the State Parks 
are not coming up with their share, and in almost State in the 
budget meetings, has had more land and responsibility options 
moving to the Federal Government, and even as I visited joint 
operations, whether it be Indiana at Indiana Dunes, California 
Redwoods, Alaska, Washington State, what we see is the State 
and Federal Government partnership and the Federal is getting 
an increasing percentage of that share because the State 
Governments are strapped and not putting the dollars in. This 
is the uniform difficult challenge.
    That said, as we kind of drown in our day-to-day problems, 
part of my commitment with this and part of the reason we're 
doing these hearings, is that the question is that you can't be 
so short-term focused that you don't leave a long-term legacy 
for your kids and grandkids. And in our National Park Service, 
one of the things we have is our long-term legacy, and we have 
to understand what our restrictions are and what realistically 
we can achieve, but seek high, but understand that whenever we 
have multiple hurricanes and the types of disasters we have and 
if we get hit with another terrorist attack, that these things 
change, that when people say are you screening--to Homeland 
Security, are you screening every bag on every airplane? If we 
do, it means a funds reduction in the National Park Service.
    It is not going to be that there's going to be this sudden 
boost up in revenue and we'll be able to screen every bag. We 
have to take risks and tradeoffs, and the question is how do we 
take those risks and tradeoffs. Now, today's testimony was 
helpful and, for example, this archeology question is very 
complex, and we'll probably have some followup in trying to 
sort out the differences between the new buildings, the 
prehistoric buildings, and the current buildings. I'm on the 
Board of Indiana Landmarks, and one of the things we have to 
have out of landmarks groups is, not just this isn't the way 
we're going to do it, but how do we propose to make value 
judgments.
    We are not going to preserve everything. We cannot afford 
to preserve everything. I think it's a good point about 
separating visitor facilities from historic facilities, but in 
those historic facilities, the 50-year rule isn't working. What 
happens--and we also can't have this egalitarian thing that 
every building is of equal value.
    Some things have hierarchies of values, uniqueness of 
values, and those concepts maybe change over time, but clearly 
I wanted to make sure that historic and archeology resources 
stay in the mix. But to do that, we're going to need aggressive 
specifics, because I agree with your fundamental, that it is 
not in many cases as high a priority in the debate system, and 
some of these debates are pretty nasty.
    When I first went on the Park Subcommittee, my first debate 
was about Gettysburg. Do you tear down the cycloramic theater 
which was a historic structure sitting on this historic 
framework. Which was the forethought of the park? Was it the 
battlefield, or was it to preserve cyclorama which was designed 
by a very significant designer, one of his best creations. It 
had meant a lot to visitors, but it meant you couldn't 
appreciate where the key point of the battle turned.
    And these are very tough questions that we have to sort 
through. At Lexington and Concord, there are buildings there 
that the Park Service has that were built on the trail that 
inhibit, in my opinion, some of the ability to understand what 
the battlefield looked like, but we kept them because they're 
historic buildings, but they don't have anything to do with the 
time period that we set the park up for.
    And how we resolve these things is very critical because by 
not making the decisions of how to prioritize, we don't have 
the money. Now, this leads to a very fundamental challenge here 
on kind of the crown jewel of parks versus the mid level parks 
versus the smaller, everything from postage stamp to 
political--what our former Park Director from my home State 
called park rail projects, that--and that anybody who manages 
the Park Service tries to come up with different types of ways 
to try to discourage Congress from adding things to the System.
    One of the big debates we had in the Centennial Act that 
we're still trying to work through is how do we not only relate 
the private sector money, but how do we on the public side 
balance--if you focus too much on maintenance and operation and 
backlog--everybody focuses on maintenance, operation and 
backlog--and you don't add new things to the Park Service?
    So, for example, another thing I support is Curt Weldon 
adding the heart of the Brandywine Battlefield to the Park 
Service. The problem with it here is that it's not a--it's a 
somewhat degraded area. It was offered by a seminary. They 
offered it at a lower cost than it would--I think it was a 
couple million dollars compared to $6 million if they sold it 
for condos. If the condos would had gone over that battlefield, 
we would never had that battlefield. It is adjacent to a fish 
and wildlife area, and it is one of the only open grassy areas 
of the areas in the area of Philadelphia. That's not a problem 
they have as much in the west, but it's a problem out east for 
any kind of green space.
    Now, when that park ran potential comes up, do we in effect 
divert resources from operations in other parks and from bigger 
parks where there is a lot of public support, to add something 
that once it's built over, it will never be part of the Park 
Service? We will never tear down the condo, and it offers green 
space in areas where there isn't green space, and while it 
wasn't a critical battle, it was an important battle.
    One of the tradeoffs here, and we push too much in one 
direction and another. Partly, we don't want to make judgments, 
generally speaking, but in my State, there's a total of 3 
percent public lands, total. Federal, State, local, township 
and county; 3 percent Federal land. Not a problem--the same 
problem that my friend Rick faces or Greg Walden where we'll be 
next up in Oregon. I sat next to him on a Resource Committee. 
He's 90 percent. And Jim Gibbons on the other side was 96 
percent in Nevada.
    We only have 3 percent. So guess what. We can't stitch 
together big parks. We want heritage areas, and the heritage 
area money is coming out of the Parks budget. It's coming out 
of the Interior. So now the National Park Service has to manage 
areas for which they have no control, and that what was 
intended as a well meaning attempt not to, in effect, reduce 
Park Service core budgets, as a result of the further 
diffusion. And then in Boston we have a thing called the 
National Park area, which in Boston Harbor we didn't own any 
land, the Federal Government. All they were doing was 
coordinating a bunch of things including Logan Airport which 
sits inside the boundaries of the National Park area.
    The Park Service is so diffuse right now, and nobody wants 
to say what are the crown jewels, what are the mid jewels, and 
what are the others. So there has been a back door, in my 
opinion, when you refer to the amount of dollars that goes to 
Yellowstone, Grand Canyon and Yosemite, and not to have those 
dollars shifted--the American public, when they say they don't 
want any change to the National Park Service, they're thinking 
of the crown jewels and their local park. If you told them, 
``Would you rather have Grand Canyon be under-funded, or cut 
out some of the small parks,'' they would say cut out some of 
the small parks. Unless you're representing that area or unless 
you have an archeological national view, it is a very tough 
challenge in polling, because they don't even know how many 
units we have or the diversity of the Park Service or the 
challenge.
    One of the hot things we're going through right now on the 
tax code question is land donations. Should you be able to take 
a land donation, and there is a proposal in the Senate we need 
to fight because it could be critical to the Park Service, 
which is, ``can you value land donations at its market value, 
or the value you bought it at?'' Well, this becomes a huge 
thing to the Nature Conservancy, to different groups working 
easements, that one of the things we're doing for new land, 
instead of buying it, we try to get easements, because that way 
we preserve the views and try to keep cattle ranches and other 
things there in the area without disturbing the park.
    But to the degree the tax code changes, to the degree we 
have these different pressures, this is incredibly complex. I 
thought these hearings were going to be a little more narrowly 
targeted. When I realized we were looking at the funding of the 
Park Service, we were automatically into questions of how you 
do core ops, how do you do an assessment of prioritization, how 
you do--personnel costs are eating up--we just had a huge 
company that had a great impact, the Indiana Delphi, declare 
bankruptcy, that GM and Ford are both teetering. U.S. Steel, 
the steel companies, they can't pay the pensions.
    We have the problem with the Federal Government. Nobody put 
aside the money to match the pensions and the health care, so 
every time you look at an employee tradeoff as opposed to 
contracting out or a purchasing tradeoff, the numbers are 
staggering that are facing us in the Park Service.
    We're talking about 5 years. You look out 15 years, these 
shortfalls are staggering, and they are not going to be able to 
be met without a lot of creative type thinking.
    I have registered aggressively my concern, and I understand 
that there are other politics going on, that Chairman Pombo's 
proposal to sell off parks isn't going to pass. Partly--and I 
made it clear that I won't vote for a budget bill that includes 
that.
    At the same time, this is partly a battle over Alaska, 
because most of these lands are in Alaska, and how are you 
going to do budget offsets, and basically it is somewhat of a 
battle over drilling on the Arctic Refuse. It was a push on one 
side to try to get another issue. It wasn't over selling parks. 
Parks aren't going to be sold. I'll just tell you that.
    The other question of how much commercialization is going 
to be in the parks is a very tough challenge and something that 
we need to visit. I appreciate all your comments, but I have--
for example, I referred earlier to the transportation system 
that mostly isn't in the park, but goes into the park in Acadia 
where L.L. Bean does have their name on the back of it.
    The question is how far are we going to go and where are we 
going to go in allowing commercialization? And I think this is 
a valid question. We see little Kodak moment spots around. It's 
a little naive to say that it hasn't already been in the park, 
that they clearly--the concessionaires have it, but I think 
there's a general consensus that there has to be a cap that we 
ought to talk about where this is going to be.
    The American public doesn't want to pay for the parks, and 
then walk in the parks that look like a constant advertising 
gimmick. The question is how can we meet these tradeoffs.
    I think that the Hoffman memo which popped up in the 
Seattle hearing, as well, isn't going to be implemented in the 
way it was proposed, but it has significant fundamental 
challenges to the way we've done business. I don't think it 
will be in that form, but some of these questions are going to 
be hotly debated, partly because, quite frankly, and I don't 
think we will probably get into this, but I want to raise this 
to give you a broader prospective, is that we have as somebody 
that came in from the outside--I don't have a park in my 
district. I don't have any Federal land in my district. I'm 
interested generally in the subject and care passionately about 
it, so I don't have a dog in the sun, so to speak.
    But I tell you what, coming in as a management person and 
trying to figure out what national monuments are and what 
preserves are and what's a recreation area and what's under the 
BLM, what's under the Park Service, what's under the Forest 
Service, it is incredibly confusing, and why Mount Saint Helens 
National Monument inside the National Forest are both operated 
by the Forest Service, but one works under Park rules and one 
operates under Forest rules, I don't understand, and what's 
happening here is we've confused the general public who is 
trying to figure out what is a mixed-up goal of the Federal 
Government of what's wilderness, what is recreation, what's 
kind of a blend of wilderness and recreation, and where are we 
going to get the money. If it's not BLM land, where will we get 
resources out of this country?
    If we don't clarify this as we move toward 2016, and try to 
figure out what should be vital in debates like the Hoffman 
memo, and then when you say, we heard earlier in the first 
panel, it was agreed in the park plan as far as cooperation, in 
order to get a park in, there are so many deals cut. You can 
use snowmobiles on these 2 acres, but not this 170 acres. You 
can use a jet ski over as you come into the park on this one 
lake, but not over on this lake. You can use watercraft only 
going 15 miles an hour here, 20 miles an hour there, and 25 
miles an hour over there.
    The agreements we have, although we're trying to get some 
worth, are just extraordinary and complex, and it makes it very 
hard to come up with a national vision. That's how we put our 
Park System together, but now as we look at it, often what 
we'll hear, quite frankly, from the environmental groups, is 
over here, and what we hear out the pro heavy usage groups is 
over here, when, in fact, it's very complex.
    Now, I want to pursue a couple specific things. I think 
when we have an organization like this, and so many of you 
are--a number of people here have vouched for your 
organization. It's interesting to kind of look beyond what is 
immediately in front of you and see that nationally this is a 
huge challenge, but this is what a commission would be helpful 
to help you out in trying to say what is our vision, how does 
the Park Service fit in. All of you retired and have the 
experience to help us come up with how did it get this way, how 
could this be changed, not just in the funding question, but 
how we should be--as we try to figure out when are we going to 
add new land, when not, what are the tradeoffs? Mr. Smith.
    Mr. Smith. I think, Mr. Chairman, if we could do that 
outside of the normal arena in which we debate these kinds of 
issues, and have this independent commission appointed by the 
Congress or by the administration or by whomever, that would 
represent then a detailed and no-political look at how these 
issues--you've brought up 15 issues here in the last couple of 
minutes that are really troublesome, that are difficult, and we 
need to resolve them, and I don't see that we're in the process 
of resolving them very well under the current situation. So if 
we could do something outside the box.
    You know, in 1963, you may remember that the Department of 
the Interior appointed a committee headed by Professor Starker 
Leopold from the University of California to look at how 
resources management should be conducted in the National Park 
Service.
    The commission met for, if I'm not mistaken, for 6 months, 
a year, whatever, and came back with the recommendations, and 
the Park Service was able to adopt those recommendations, and 
it's made a significant difference in the way that the Park 
Service conducts its resources management activities.
    It's that kind of commission that I'm thinking about that 
would help us sort out or sort through the kinds of questions 
that you're raising.
    Mr. Souder. Let me pursue that just a second. I want to go 
over to this Foundation question, which we haven't dealt with 
in the other hearings, and I want to talk about how you address 
that question. I learned this early on. I was a baby politician 
when I never thought I would be a politician, but I learned as 
I took cost accounting and as we did case studying in grad 
school at Notre Dame, that--let me define the parameters and 
other people can figure out the solution based in fact by how I 
define the parameters.
    The problem with the commission in this political 
environment is--how would you feel if I picked a commissioner 
picked by Secretary Norton? I just make that comment to 
illustrate here how the commission is really going to be a 
function of who picks the commission. Isn't it?
    Mr. Smith. Well, of course, and I would think that the 
responsibility to pick the commission would be distributed 
equitably so that everyone would have an oar in the water and 
it couldn't be accused of being overly partisan. You know, the 
Leopold Commission was composed of professors, it was composed 
of resources management specialists from various fields, and 
the recommendations that they brought back, were not--and I 
pardon using this word, ``partisan'' in the sense that they 
could be traced back to either Democratic or Republican roots. 
They were recommendations that really went to the heart of the 
question; how should the Park Service manage its natural 
resources within the Park System, and that's the kind of 
commission that we're envisioning as a way to sort through and 
make recommendations to the President.
    Mind you that these recommendations would have to be 
adopted by whatever administration was in power, so, I mean, 
there obviously would be some political tinge to what happened, 
but it seems to me, again, that we're not making much progress 
at the present time in arresting the slow decline of the parks 
in the System, and if we could think about some different ways 
of Governments, if this commission could think about some 
different ways of funding the kinds of question that you asked, 
Mr. Renzi, about other kinds of innovative, creative funding 
mechanism, we think that's worth a try.
    Mr. Souder. It's interesting, and we'll continue to 
followup to see whether that actually is a viable 
presentation--a viable thing. Let me suggest two things about--
a couple things about commissions. The advantage we have here 
is we look at it as looking around the centennial as an 
organizing principle, that the premises and the language of how 
you define it. To the degree that it attaches blame that looks 
partisan makes it impossible. I find that commissions are 
generally much more enthusiastically supported by those not in 
power than in power, which is to say that the Republicans are 
less likely to be enthusiastic about a commission than the 
Democrats who don't have majority in any particular area right 
now, arguably within the Supreme Court.
    The second thing related to the commission is the majority 
tends to like a commission if they use a commission to pass the 
buck, and so if we don't want to know how to deal with Social 
Security, we'll get a Social Security commission, because then 
we can blame the commission for making the hard decisions.
    In trying to think that out, the political reality of how a 
commission would play through here, if this plays through going 
into a very close election, it would be finger-pointing that 
the Republican Party didn't spend enough money, it's dead on 
arrival. If it's moves to be more like a Social Security 
commission where it's taking decisions that are out and say or 
just it isn't going to happen, just to be honest, that says 
look we have a challenge here that needs to be addressed 
outside the political process. Maybe even its report comes in--
it's a qualified year that comes in after the next Presidential 
election so it doesn't get caught up in the back and forth of 
the political process. The national parks have historically 
been bipartisan.
    Let me be blunt. The environmental movement hasn't endeared 
themselves to the Republican Party, and the Republican Party 
hasn't endeared themselves in the environmental movement, and 
because of that, to the degree it gets caught up in those kind 
of issues in a very bitter divided country, that the previous 
consensus for the national parks starts to fall apart. In 
minutes, it's easier for Members not to vote for the funding 
bills because you say well this group here tried to beat us, 
wants an increase in funding.
    The other side tries to use that then to try to gain power, 
and it's inevitable to some degree, but it hasn't been 
historically as much that case. What's been interesting about 
it is the hearing process because we've had many Republicans 
attend, and on the centennial bill, we're trying to work 
through something.
    So the breadth of what this commission pursues, if it gets 
into clean air and clean water, which visions out of the Park 
Service immediately come into play, you get a different dynamic 
than if it stays more focused narrowing on the park, so even 
defining how broad the vision of the commission would be, would 
be very, you know--make it more or less political.
    Mr. Smith. I'm confident, Mr. Chairman, that we could 
figure that out. This is a great country, and we've figured out 
difficult problems before, and if management and preservation 
and protection of our National Park System is an important 
issue, which I think it is, I think we could find a way to 
appoint a commission that would operate, as you point out, 
outside the political realm, and to come back and bring to the 
Congress and to the President, good, solid, professional 
recommendations about how the Park System should be governed 
and how it should be financed, and I'm confident we can do 
that. This is a great country. We can do that kind of stuff.
    Mr. Souder. Thank you. Ms. Tuck, you raised a really 
challenging question that we hear constantly from private 
sector people, including right now, say, FEMA versus private 
relief efforts in Louisiana. It's not unique to parks. This is 
true when we get into child care questions, how do we provide 
juvenile services in the United States, that there is really 
kind of a double part to this, that to some degree Grand 
Canyon, Yellowstone and Yosemite, and your funds in the parks 
themselves, because of their popularity, this is used in effect 
where we go down on the House floor and argue for more funding 
for the parks, then multiple Members come down and argue that 
the Lincoln Memorial Home is under funded in the State of 
Indiana. You use the crown jewels--in effect, you get used to 
get funding for everybody else.
    Ms. Tuck. Correct.
    Mr. Souder. To some degree, to the degree that the 
demonstration fees are collected at those parks and the private 
funding groups give to those parks, to some degree you're 
supporting the rest of the system. Do you think your donors 
like that or dislike that? When they give money to the Grand 
Canyon, the suggestion that--because the hint underneath that 
was, look, they want to just give to the Grand Canyon, you 
don't want to see the money replaced by having Federal funds 
transfer to other places because we're giving to Grand Canyon, 
but in a effect, they're helping the Park Service as a whole 
and it's not like the funds are going to education.
    Ms. Tuck. Right. I think there are two issues. No. 1, to 
the extent where the boats rise for the Grand Canyon and the 
rest of the icon parks, the boats rise also for the other 
parks. I think everybody understands that. What cannot happen 
is if a group becomes tremendously successful in raising money 
for a park, then you cannot cut the appropriations for that 
park, or philanthropy will cease.
    I think we're at a very interesting time with parks and 
philanthropy. There is a lot of argument about this within the 
friends groups that raise money for parks, but if you think 
about it and you think about where State universities were at 
the turn of the last century and you think about where they are 
now--you know, if State universities had to exist now on 
tuition and what they get from legislature, they would be 
terrible, pathetic places.
    I think the promise for philanthropy for national parks is 
really, really great. I mean, if I had to pitch you about what 
you're going to leave in your will, what is the greater legacy 
than the Grand Canyon? What is a better legacy gift? And we 
haven't done very much about that, but I think it is a double-
edge sword. It's going to take a while to develop.
    When a park accepts philanthropy, then sometimes things 
have to be done a little differently. The world with 
philanthropy is not the same world as the Park Service, and 
sometimes the Park Service doesn't like that. Sometimes it does 
like it. But if donors give money for a specific item, then 
they expect that item will be completed, and completed more or 
less on time.
    That creates a different kind of dynamic within the Park 
Service. Philanthropy can offer a lot of possibilities in terms 
of dollars over the long-term, but it will mean that some part 
of the Park Service will have to operate differently, and there 
is really not a very good discussion about that, yet, between 
both the friends groups and the Park Service.
    Mr. Souder. You raised a question about doing--you 
suggested there ought to be defined boundaries as to what 
philanthropy does and what Government funding does, which is a 
very interesting question. To some degree--I keep wanting to 
say--I don't remember whose testimony, but one of you pointed 
out that at Grand Canyon--it may have been yours--that it was 
80 percent personnel, it is now 90 percent personnel.
    Isn't that to some degree what's happening, is that the 
Federal Government is basically saying, ``we can barely cover 
personnel cost?''
    Ms. Tuck. This should be Joe's question, not mine, 
because--Joe, it's your question about where--what the 
personnel costs are and what percentage personnel costs are at 
the Grand Canyon.
    Mr. Alston. Could you restate the question?
    Mr. Souder. Could you come up to the mic? One of these 
testimonies said that at Grand Canyon 80 percent had been--
personnel had risen to 90 percent.
    Mr. Alston. I think our figures are about 82--83 percent.
    Mr. Souder. But that has been rising over time.
    Mr. Alston. No, I don't think so. It's been relatively 
constant here for about 5 years, maybe even decreasing a little 
bit. For us, what it comes down to in our department is how 
much flexibility you have in your budget. Not only do you have 
your personnel cost, a fixed cost, but then you have all the 
other things you have to do, buy trash bags and toilet paper 
and cleaning supplies, and all those things that are necessary. 
So how much flexibility would you have----
    Mr. Souder. Let me ask the question. Have you had a 
reduction in full-time permanent employees.
    Mr. Alston. Over the last 5 years, I think we looked at--we 
reduced our base-funded personnel by five positions over the 
last 5 years.
    Mr. Souder. So how many positions do you have.
    Mr. Alston. I think 360, so----
    Mr. Souder. So it's a minimal reduction compared to other 
parks. How were you able to--is it because it's a crown jewel 
and it has received more steady increases in your park? How 
have you not had the reductions in personnel.
    Mr. Alston. Some of that--well, there was a variety of 
reasons for it. For example, cost of collection. We have 
increased the number of fee collectors through the fee 
demonstration programs. So we have people out on the gates. 
That's been one of our--actually increased the number of 
positions that way, so that some of the other positions have 
been offset, so what you're seeing--you take those out, then 
you're actually seeing maybe reductions in some of the other 
base-funded positions.
    What else. Basically, it's been fairly constant. If you 
look at the soft budget, you would see that it's been in the 
last 5 years fairly constant.
    Mr. Souder. Thank you. Ms. Tuck, listening to that, my 
other question is, as I understood that, and it is more than 
having--and Mr. Keiter's testimony shows that all of the parks 
have made significant reduction in numbers of employees, and we 
heard that across the country.
    We also heard there is a shift in employees. Some employees 
take collection at the gate, and some blend into Homeland 
Security questions, Organ Pipe Cactus being an example. So what 
you have is a reduction in people who are wildlife personnel, 
biologists, archeologists, as what we heard from Ms. Spurr. 
Given the fact that trend--even if we increase the park budget 
at a greater rate than three, and hypothetically get this out 
to double, and forgetting the Centennial Act for a minute, that 
the pressure is still going to be on the foundations to pick up 
some of the gaps, because the health care costs are going up to 
raise--let's say conservatively 8 to 10 percent, and I don't 
think anybody would sign up for 8 to 10 percent, and pension 
plans are--the cost pressures are just huge.
    If your park budget focuses on the maintenance, where would 
you draw the lines? In other words, as far as specifics, I 
found it very interesting, because I agree with you. If people 
pay for the things substantive, but how would we draw the lines 
here? If we drew them as science or archeology, the practical 
impact may be there's no science or archeology.
    Ms. Tuck. That's a dilemma that you face, and it's a 
dilemma to the point that I have some colleagues that raise 
money the same way I do, and you've met some of them like Ken 
Olsen, I think. It's a dilemma. Where is--the code word we use 
is ``bright line.'' Where is that bright line.
    And unlike some groups, the Grand Canyon friends group has 
crossed that line, and we've crossed the line to make sure that 
science, in fact, exists at the Grand Canyon.
    Here is an example. One of the great success stories of the 
last 50 years is the California condor. It was headed toward 
Dodo bird status, meaning extinction, as sure as you and I are 
sitting here. Twenty-two years ago, there were 22 condors. We 
have more than 50 condors in our park.
    The Park Service doesn't have any money. There is a legal 
responsibility to take care of those condors, but the only 
money it has comes from our organization. Condors are wonderful 
birds. You may think they're ugly, but they are comical. They 
are inquisitive. Don't knock them. They're great birds.
    And if you don't have some inner, you know, where some 
visitor is not as in tune as Rick would be with his children, 
says, ``Susie, hold up your ham and cheese sandwich,'' and as a 
3-year-old, for the little condor, the condor can take that 
hand. So why is it that if the Park Service has a 
responsibility to care for threatened and endangered species, 
they don't have the money?
    Joe has to make tough decisions every day. I wouldn't be in 
his position for all of the rocks in the Grand Canyon, but 
somehow as we define what these parks are about, we have to be 
clear that if we're making decisions in the natural resource 
parks, there has to be adequate science to make those 
decisions.
    So, back to your question about the philanthropy, the wise 
people that are on my board, and there is one here today, one 
of my board members, along with Joe, makes those decisions. Joe 
can propose. And what we decided was we didn't want weakened 
science at our park, so we agreed to take on some things that 
are, in fact, core operation. We hope that changes.
    I mean, there are a lot of needs this park has, and I have 
chosen today to use science just as an illustration. We could 
have the same conversation about transportation, 
interpretation, historic buildings, archeological sites. We all 
have difficult--there is a difficult choice for the Park 
Service, but then the Foundation has to choose, and if we get 
into too much of core operations, then our donors are not going 
to support this.
    They want to provide that margin of excellence. They're 
excited about our project to restore historic boats. They're 
excited about building 73 miles of rim-side trails, all of 
which are wheelchair accessible. They want the Stewart Udall 
Endowment. Do they want to help with the toilet paper budget or 
slogging out the toilets along the trail? No, siree. That is a 
core operation.
    So that bright line question becomes important for 
everybody as we really try to grow the potential for 
philanthropy, to essentially provide the kind of support that 
State universities get in our country, and that's what I think 
the opportunities are.
    Mr. Souder. One of the challenges that I agree with is that 
as we--one of the things I've been debating on the Centennial 
Act as we look at 2016, is at Mission 66 giving the vision as 
the highway--interstate highways were going, and the visions of 
the parks. It's not clear that they also will motivate the 
taxpayer to increase their giving or their spending directly 
through the budget to say we'll pay for the toilet paper, but 
somebody has to pay for the toilet paper or they'll be very 
mad, particularly if they say put $5 in to have toilet paper if 
you go into this john. That would be less popular than the 
trail map.
    One last question, and I'll see if Mr. Renzi has anything. 
Mr. Smith, we were talking earlier--Ms. Tuck basically said 
Yellowstone was getting way too much money. You were acting 
superintendent after you retired. Do you know why this would 
have been? Is this a recent blip, or has historically that been 
true?
    Mr. Smith. Well, we often refer in the Park Service to 
Yellowstone as the mother park, as being the first park, and I 
assume that the long history of support for Yellowstone has 
just continued on growing. I don't have any idea at the present 
time whether Yellowstone is getting more or less of its share 
than it deserves, but I would assume that historically, since 
Yellowstone was the first national park, that it has continued 
to occupy a preeminent position in the Congress mind when it 
goes to--I mean, you know, almost anybody you ask in the United 
State, name a national park, they're probably either going to 
say Yellowstone or Grand Canyon, and I assume that's the same 
way in the Congress, too.
    Mr. Souder. I think that we'll look into the particulars of 
it. I think that they just redid their sewer system, which is 
something when you have a blip up you're going to have over a 
couple years. We know the wolf and visitor projects. I'm just 
trying to figure out how did--we did Old Faithful. Are we doing 
some of the lodge? That's a huge annual difference, and the 
question is what would it be. They don't have a big delegation 
in Congress.
    It may be that the Grand Canyon, because for a while it was 
a projected budget expansion of the transportation system. It 
may be that got transferred out and wasn't used, but we'll look 
into that question because it is a basic equity question that 
puts tremendous pressure on the individual Congressman when it 
is raised.
    Mr. Keiter, thank you for the detailed by-park information 
that you presented. Do you have any additional comments you 
want to make after listening to my comments and the exchanges 
here?
    Mr. Keiter. How did you know that a professor could stay 
quiet for this entire period of time. My students would have 
been amazed that I made my remarks in 7 or 8 minutes, and I 
appreciate your forbearance at the beginning of my testimony.
    The only real comment that I have to make, and I appreciate 
your observation, Mr. Chairman, is the fact that NPCA has 
attempted to work and will continue to work under the aegis of 
its board, etc., on a non-partisan basis, and our goal has been 
and will continue to be to try to provide hard, good, solid, 
detailed facts through such exercises as the State of the Parks 
reports that I alluded to in my testimony, as well as the 
business plans that we initiated and got underway that the Park 
Service has put under its wing currently, and I hope that 
through that sort of clear, detailed information, that the 
committee can make some good, sound judgments about how we 
might go about providing the resources the parks so clearly 
need.
    Mr. Souder. Thank you, and I wrote down in the margin a 
couple of particular followup things on some of your testimony 
that will be on my mind. Anything else.
    Mr. Renzi. No.
    Mr. Souder. Thank you for hosting us. Thank you all for 
participating in this hearing, and this will be published as an 
official committee record. We'll have much of this up on our 
Web site, as well, and then a final report will probably come 
out late next year sometime. With that, the subcommittee stands 
adjourned.
    [Whereupon, the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
